<html>
<title> - EXAMINING FDA'S ROLE IN THE REGULATION OF GENETICALLY MODIFIED FOOD INGREDIENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  EXAMINING FDA'S ROLE IN THE REGULATION OF GENETICALLY MODIFIED FOOD 
                              INGREDIENTS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-186

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
      Printed for the use of the Committee on Energy and Commerce
                       energycommerce.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-347                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          JIM MATHESON, Utah
PHIL GINGREY, Georgia                GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            JOHN BARROW, Georgia
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
H. MORGAN GRIFFITH, Virginia         KATHY CASTOR, Florida
GUS M. BILIRAKIS, Florida            JOHN P. SARBANES, Maryland
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)










  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7

                               Witnesses

Michael M. Landa, Director, Center for Food Safety and Applied 
  Nutrition, U.S. Food and Drug Administration (FDA).............     9
    Prepared statement...........................................    12
Alison Van Eenennaam, Ph.D., Cooperative Extension Specialist, 
  Animal Genomics and Biotechnology, Department of Animal 
  Science, University of California, Davis.......................    45
    Prepared statement...........................................    48
    Answers to submitted questions...............................   125
Scott Faber, Senior Vice President of Government Affairs, 
  Environmental Working Group....................................    71
    Prepared statement...........................................    73
    Answers to submitted questions...............................   130
Kate Webb, Assistant Majority Leader, Vermont House of 
  Representatives................................................    84
    Prepared statement...........................................    86
    Answers to submitted questions...............................   133
Stacey Forshee, Fifth District Director, Kansas Farm Bureau......    90
    Prepared statement...........................................    92
    Answers to submitted questions...............................   136
Tom Dempsey, President and CEO, Snack Food Association...........    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   138

                           Submitted Material

Statement of the Corn Refiners Association.......................   122

 
  EXAMINING FDA'S ROLE IN THE REGULATION OF GENETICALLY MODIFIED FOOD 
                              INGREDIENTS

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Joe Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Burgess, Shimkus, 
Murphy, Blackburn, Lance, Guthrie, Griffith, Bilirakis, 
Ellmers, Pallone, Engel, Capps, Schakowsky, Matheson, Green, 
Butterfield, Barrow, Castor, Sarbanes, and Waxman (ex officio).
    Also present: Representative Pompeo.
    Staff present: Nick Abraham, Legislative Clerk; Clay 
Alspach, Chief Counsel, Health; Gary Andres, Staff Director; 
Leighton Brown, Press Analyst; Karen Christian, Chief Counsel, 
Oversight; Noelle Clemente, Press Secretary; Brad Grantz, 
Policy Coordinator, Oversight and Investigations; Sydne 
Harwick, Legislative Clerk; Brittany Havens, Legislative Clerk; 
Peter Kielty, Deputy General Counsel; Carly McWilliams, 
Professional Staff Member, Health; Tim Pataki, Professional 
Staff Member; Chris Sarley, Policy Coordinator, Environment and 
Economy; Macey Sevcik, Press Assistant; Adrianna Simonelli, 
Clerk; Heidi Stirrup, Health Policy Coordinator; John Stone, 
Counsel, Health; Tom Wilbur, Digital Media Advisor; Ziky 
Ababiya, Democratic Staff Assistant; Eric Flamm, Democratic FDA 
Detailee; Debbie Letter, Democratic Staff Assistant; Karen 
Lightfoot, Democratic Communications Director and Senior Policy 
Advisor; Karen Nelson, Democratic Deputy Committee Staff 
Director for Health; and Rachel Sher, Democratic Senior 
Counsel.
    Mr. Pitts. The subcommittee will come to order. Before we 
begin, I would like to take a moment to address the guests in 
our audience. First of all, thank you all for coming. We think 
engaged citizens are a welcome and valuable part of the 
political process, and I only wish every hearing drew this much 
interest.
    The purpose of this hearing is to examine FDA's role in 
regulating genetically-modified food ingredients, and it is an 
opportunity for this committee to ask questions and have a 
thoughtful discussion on this issue. The number of people in 
this audience and in the hallway this morning demonstrates the 
strong interest in this topic, and we welcome that interest and 
your attendance here today. I do want to remind our guests that 
the chair is obligated, under the rules of the House and rules 
of the committee, to maintain order, preserve decorum in the 
committee room, and I know that we all may not agree on this 
topic, but I ask that we all abide by these rules and be 
respectful of our audience members, our viewers and our 
witnesses, and the chair appreciates the audience's cooperation 
in maintaining order as we have a full discussion on this 
important issue this morning.
    The chair will now recognize himself for an opening 
statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. The genetically-modified organisms, or GMOs, is 
a term that refers to ingredients sourced from crops that have 
been genetically engineered to express certain traits or 
characteristics. A number of people have an instinctive 
distrust of food that has been genetically modified, and are 
asking questions about its safety. Others see great promise for 
better nutrition and the alleviation of hunger around the 
world.
    There are real sensitivities around this issue, and all 
issues regarding the food we eat and feed our children and our 
grandchildren. It is our job as policymakers, particularly as 
it relates to the public health, to establish a factually and 
scientifically sound foundation prior to taking any action that 
would impact consumers and our economy, and this hearing 
provides a great opportunity to put rhetoric aside and do just 
that.
    GMOs have been a part of the U.S. food supply since the 
mid-1990s. In fact, as much as 90 percent of our corn, sugar 
beet, and soybean crops are now genetically engineered, and 
about 70 percent of processed foods contain such ingredients. 
The U.S. Food and Drug Administration oversees the safety and 
the labeling of all food products from plant sources, including 
those from genetically-engineered crops. These products must 
meet the same safety requirements as foods from traditionally 
bred crops. The Food and Drug Administration currently has a 
consultation process in place in which developers of the 
underlying technologies address any outstanding safety or other 
regulatory issues with the agency prior to marketing their 
products. FDA has completed approximately 100 of such 
consultations. No products have gone to market until FDA's 
safety-related questions have been resolved.
    According to FDA Commissioner Margaret Hamburg, FDA has 
``not seen evidence of safety risks associated with 
genetically-modified foods.'' Further, FDA has no basis for 
concluding that bioengineered foods are different from other 
foods in any meaningful way, and the World Health Organization 
has stated that ``no effects on human health have been shown as 
a result of consumption of such foods.'' In fact, they can grow 
faster, resist diseases and drought, lower reliance on 
pesticides, cost less, and prove more nutritious. Even 
President Obama has stated that ``advances in the genetic 
engineering of plants have provided enormous benefits to 
American farmers'' and that ``investment in enhanced 
biotechnology is an essential component of the solution to some 
of our planet's most pressing agricultural problems.''
    Nonetheless, there have recently been a number of state 
initiatives calling for the mandatory labeling of food products 
that contain GMOs, and we will hear today from a number of 
witnesses who can speak to such actions and the impact they 
would have.
    Food labeling is a matter of interstate commerce and is, 
therefore, clearly a federal issue that rightfully resides with 
Congress and the FDA. I am concerned that a patchwork of 50 
separate state labeling schemes would be impractical and 
unworkable. Such a system would create confusion among 
consumers and result in higher prices and fewer options.
    Finally, I want to commend Representative Mike Pompeo and 
Representative Butterfield for their leadership on these 
issues, and I look forward to learning more about H.R. 4432, 
the Safe and Accurate Food Labeling Act of 2014, and I would 
seek unanimous consent of the committee that Mr. Pompeo, who is 
on the full committee but not on the Health Subcommittee, be 
able to sit with us today in this hearing.
    Without objection, so ordered.
    I would like to welcome all of our witnesses for being here 
today. I look forward to your testimony.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The Subcommittee will come to order.
    The Chair will recognize himself for an opening statement.
    Genetically modified organisms, or GMOs, is a term that 
refers to ingredients sourced from crops that have been 
genetically engineered to express certain traits or 
characteristics. A number of people have an instinctive 
distrust of food that has been genetically modified, and are 
asking questions about its safety. Others see great promise for 
better nutrition and the alleviation of hunger around the 
world.
    There are real sensitivities around this issue, and all 
issues regarding the food we eat and feed our children and 
grandchildren. It is our job as policymakers, particularly as 
it relates to the public health, to establish a factually and 
scientifically sound foundation prior to taking any action that 
would impact consumers and our economy. This hearing provides a 
great opportunity to put rhetoric aside and do just that.
    GMOs have been a part of the U.S. food supply since the 
mid-1990s. In fact, as much as 90 percent of our corn, sugar 
beet, and soybean crops are now genetically engineered and 
about 70 percent of processed foods contain such ingredients.
    The U.S. Food and Drug Administration oversees the safety 
and labeling of all food products from plant sources, including 
those from genetically-engineered crops. These products must 
meet the same safety requirements as foods from traditionally 
bred crops. The FDA currently has a consultation process in 
place in which developers of the underlying technologies 
address any outstanding safety or other regulatory issues with 
the agency prior to marketing their products. FDA has completed 
approximately 100 of such consultations. No products have gone 
to market until FDA's safety-related questions have been 
resolved.
    According to FDA Commissioner Margaret Hamburg, FDA has 
``not seen evidence of safety risks associated with genetically 
modified foods.'' Further, FDA has no basis for concluding that 
bioengineered foods are different from other foods in any 
meaningful way, and the World Health Organization has stated 
that ``no effects on human health have been shown as a result 
of consumption of such foods.'' In fact, they can grow faster, 
resist diseases and drought, lower reliance on pesticides, cost 
less and prove more nutritious.
    Even President Obama has stated that ``advances in the 
genetic engineering of plants have provided enormous benefits 
to American farmers'' and that ``investment in enhanced 
biotechnology is an essential component of the solution to some 
of our planet's most pressing agricultural problems.''
    Nonetheless, there have recently been a number of state 
initiatives calling for the mandatory labeling of food products 
that contain GMOs. We will hear today from a number of 
witnesses who can speak to such actions and the impact they 
would have.
    Food labeling is a matter of interstate commerce and is 
therefore clearly a federal issue that rightfully resides with 
Congress and the FDA. I'm concerned that a patchwork of 50 
separate state labeling schemes would be impractical and 
unworkable. Such a system would create confusion among 
consumers and result in higher prices and fewer options.
    Finally, I want to commend Rep. Mike Pompeo (R-KS) and Rep. 
G.K. Butterfield (D-NC) for their leadership on these issues, 
and I look forward to learning more about H.R. 4432, the Safe 
and Accurate Food Labeling Act of 2014.
    I would like to welcome all of our witnesses for being here 
today. I look forward to your testimony.

    Mr. Pitts. And at this time, I yield 5 minutes to the 
ranking member for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Pitts.
    Today's topic is one of thoughtful consideration of this 
committee. Many Americans are interested in the regulation and 
labeling of foods with genetically-modified ingredients, and 
while it is an emotional issue for many, the facts can lead 
reasonable people to different conclusions.
    For policymakers, there are a number of considerations 
involved, so I am glad that we are able to convene a panel to 
share the range of perspectives on the issues, and I hope we 
can engage in an honest and respectful discussion.
    Genetically-modified foods have been in our food supply for 
decades. In fact, some estimate that over 70 percent of 
processed foods contain GMOs, however, they are not labeled as 
such. In the wake of growing concerns from consumers, the Food 
and Drug Administration issued a policy statement on its 
regulatory oversight and labeling policies for GM foods in 
1992, and in 2001, issued draft guidance on voluntary industry 
labeling.
    I fully understand why consumers want to know what goes 
into the food they serve their families. For people to make 
informed decisions about what they eat, they need information, 
and that is why we required food labels to include nutrition 
facts, and that is why they must use common rather than 
technical names for ingredients whenever possible so that this 
information is, in fact, useful. It is also why several states 
have enacted their own regulations mandating the labeling of 
these foods. Three states have put new laws on their books, 
while many more have considered doing so, either through ballot 
initiative or state legislation. None of the state labeling 
laws have gone into effect yet.
    While such laws give voice to the many who are concerned, I 
am troubled by the net effect of the inconsistent state 
standards. America's agricultural production and food 
distribution chains necessarily cross state lines, and 
conflicting regulations could cause difficulties, resulting in 
higher cost for consumers.
    Like the advances in medical technology that we deal with 
as a subcommittee, innovations in biotechnology have a real 
potential to address current problems and improve the quality 
of life for people across the globe. And as representatives of 
the American people, we must also be sure that the application 
of these technologies does not put consumers at risk, and that 
information is available to those seeking it out. In the end, 
the science must remain the arbiter of any safety concerns, and 
our regulations must reflect a rigorous evaluation of the 
evidence.
    So again, I am glad that we are having this hearing. I look 
forward to the panel's testimony. I hope that we can weigh the 
merits of all recommendations presented, and evaluate just how 
any regulatory approach would best serve the interests of the 
American people.
    I would like to yield the remainder of my time to the 
gentleman from North Carolina, Mr. Butterfield.
    Mr. Butterfield. Thank you, Mr. Pallone, for yielding. 
Thank you, Mr. Chairman, for your kind words, and thank all of 
you for coming today.
    Mr. Chairman, access to safe and affordable food is very 
important to every consumer in America. I think at least we can 
agree on that fact. I begin this conversation by saying that I 
represent an agricultural district in North Carolina. It is 
also a low-income district, and so I have a very keen interest 
in this subject. A large portion of my North Carolina district 
is agriculture. Farmers all across my state and across my 
district remind me that North Carolina farmers don't just grow 
crops for North Carolinians, they grow crops for America. And 
so the food supply chain is vast. It is interconnected. The 
work necessary to get an apple or an ear of corn to the produce 
section at the supermarket is absolutely staggering. From sea, 
to farmer, to wholesaler, to processor, to packer, to 
distributor, even to the store shelf itself, it is easy to 
appreciate the intricate system that feeds America, and I am 
beginning to learn more and more about this.
    But several states have proposed regulations, and that I 
worry, if enacted, would cause significant disruption to the 
Nation's food supply. It would cause confusion, it would cause 
uncertainty among consumers, and ultimately will result in 
increased costs at the checkout line. Depending on what state 
regulations mandate, separate supply chains will likely have to 
be developed, beginning at the farm, and at every state--step, 
all the way to the supermarket.
    The new infrastructure requirements are as daunting as they 
are costly, and you can bet that all of those costs will be 
passed on to the consumer, with studies showing that the 
average cost topping $500 a year. For many of my constituents, 
that would be impossible.
    So I have worked with my friend, Mr. Pompeo, and others to 
propose what I believe is a measured approach that gives 
consumers certainty while taking into account the delicate 
balance and sheer size and complexity of the food supply chain 
that employs many Americans.
    The proposal, my friends, is very simple. The FDA, our 
Nation's foremost food safety authority, should have the 
authority to require labeling on genetically-modified foods, 
and establish federal standards so that consumers, regardless 
of where they live or work, will clearly understand the 
options.
    Finally, I would say, Mr. Chairman, that I will be the 
first to say that this proposal is not perfect. This proposal 
is not perfect. It will certainly evolve as it progresses. We 
don't legislate in a vacuum, but I believe a national, a 
national labeling standard makes the most sense for our highly-
integrated and interdependent food supply. I am confident that 
we will take what we learn from today's hearing, as well as the 
input we are sure to receive, to inform out work as we move 
forward. We need commonsense legislation.
    Thank you very much. I yield back.
    Mr. Pitts. Gentleman's time has expired.
    The chair now recognizes the vice chairman of the full 
committee, the gentlelady from Tennessee, Mrs. Blackburn, for 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    The people who are going to be harmed the most by the anti-
GMO activist movement are those who can least fight against it. 
For example, there is a rice, it is called golden rice, which 
was developed with genetic engineering. One of the benefits to 
this rice, and the reason that it is called golden rice, is 
that it has a level of vitamin A that is not found in other 
rice. Golden rice has fed millions of starving people around 
the world, and additionally, prevented blindness and death 
because of the presence of vitamin A. The rice has been shown 
to be safe by multiple tests, and yet the anti-GMO activists 
have opposed its use simply because they do not like the idea 
of genetically-modified food.
    Farmers have genetically modified food for centuries. 
Farmers would breed cattle to get the best traits. Crops were 
developed which are most resistant to drought, pests, and 
weeds. George Washington Carver did research and taught at 
Tuskegee for over 40 years. While there, he developed 
techniques to improve soil, give farmers alternative cash 
crops, improve the nutrition of people living in the south. He 
did this by experimenting with different varieties of peanuts 
and sweet potatoes. Of course, different varieties are simply 
products with different genetic makeup.
    To bring reason to this discussion of different varieties 
of food, my colleagues and I have introduced legislation, H.R. 
4432, the Safe and Accurate Food Labeling Act of 2014, 
introduced by Representative Pompeo and myself, along with 
Representatives Matheson and Whitfield, would prohibit 
genetically-modified plants intended for food use to be sold 
without first complying with a safety review process at the 
FDA. Under this Bill, if the FDA were to find a difference 
between the new product and a comparable non-GMO food that 
might affect safety, the FDA would require a label. The bill 
would do the following. Number one, advance food safety. 
Address the questions that consumers have about the safety of 
GMO food by requiring the FDA to conduct a safety review of all 
new GMO traits before they are introduced to the marketplace. 
Number two, inform consumers. Help consumers make sense of GMO 
labeling claims and their choices in the marketplace by asking 
the FDA to establish federal standards for companies that want 
to voluntarily label their product for the absence of or the 
presence of GMO food ingredients. Number three, provide 
consistency. Improve food labels using the term natural by 
requiring the FDA to define the term for its use on food and 
beverage products, thus creating a consistent legal framework 
to guide food labels and inform consumer choice. Fourth, 
eliminate confusion, which is what all good legislation should 
do, and remove the uncertainty of the 50 state patchwork.
    Thank you for holding the hearing, and at this time, I 
yield my remaining time to Mr. Pompeo.
    Mr. Pompeo. Thank you for yielding, Mrs. Blackburn. Thank 
you to you and to Mr. Butterfield for being cosponsors of this 
bill. You can see today that we are engaged in a bipartisan 
effort to get to the facts and the science surrounding this 
incredibly important issue. I want to thank all the witnesses 
for coming. I especially want to thank Stacey Forshee, fellow 
Kansan. It is her second trip to Washington to help do good 
work on behalf of consumers all across the country. Thank you 
for being here today.
    Look, at the end of the day, this is a Bill that is needed 
to make sure that folks all across America can afford food. We 
in America have known for a long time that absent innovation 
and technology, the food prices will rise dramatically. We 
won't be able to feed the next billion people in the world 
either, something that I think we take great pride in here in 
America. Studies have shown that absent this legislation, the 
average family's food bill will go up by $500, and while I know 
there are some for whom that is not a lot of money, there are a 
lot of folks that I represent for whom that it is an awful lot 
of money, and who are living day-to-day and paycheck to 
paycheck, and who care deeply to make sure that their food 
prices, one of the things that they have to make hard decisions 
about from time to time, doesn't get even more difficult in 
this economy that we know is struggling so much. And it is also 
to help folks who are the producers of this food, to make sure 
that they have a way to get this product from their cattle 
ranch or their farm, or wherever it may be, to our store 
shelves in a way that they can do profitably, so that they can 
continue to invest in their products, so that America continues 
to be the leader in world production of food in an affordable 
way.
    The science is not debatable here. There has been lots of 
research, lots of studies. Even those who oppose this bill 
don't make much of a case about the science. And that is what 
FDA is all about; it is about getting the science right. This 
bill gives them the opportunity to continue to review that, and 
I think it is really good policy and will make our food supply 
chain enviable all around the world.
    I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the ranking member of the full committee, Mr. 
Waxman, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Today's hearing is on a topic about which many Americans 
have strong feelings. Twenty years ago, the first genetically-
engineered food, the slow-ripening Flavr Savr tomato, went on 
the market. Today, the vast majority of corn and soybeans and 
cotton and canola and sugar beets and papaya grown in the U.S. 
are genetically engineered. All of these foods have been 
assessed by the Food and Drug Administration in a voluntary 
consultation process, and FDA has found no significant 
differences between them and their traditionally-bred 
counterparts.
    Some 70 to 80 percent of packaged foods contain ingredients 
from genetically engineered, or GE, plants. Yet, despite their 
ubiquity and FDA's OK, many consumers remain uncomfortable with 
these foods and want mandatory labeling so they can avoid them.
    As we consider the questions on GE foods at today's 
hearing, I will examine them in the context of some important 
principles I have long supported. First, I believe it is 
critical that our actions be based on science. As with so many 
other matters pertaining to products we use and consume every 
day, we need to rely on the expertise of FDA and other 
scientific regulatory agencies. Second, when we consider 
requiring labeling on food, that label should provide useful, 
science-based information to consumers. I certainly believe 
that food labels should enable consumers to make informed 
choices. I fought hard to pass legislation that gave consumers 
useful information about the nutritional content of food. 
Third, unless there is a compelling policy reason otherwise, we 
should maintain the ability of states to make a decision that 
is different from the Federal Government. All three of these 
concepts are at play here today, and I think we should examine 
each carefully.
    On the first concept, what does the science tell us about 
GE foods? From what I understand, genetic engineering is not an 
inherently dangerous technology. Certainly, when it is used to 
give new properties to plants, we need to make sure those new 
properties don't affect the safety or nutrition of food from 
those plants, but if FDA has done that and finds that GE food 
does not differ in any significant way from traditional food, 
why should there be a label that marks it as different? If 
there are safety questions about a food, then it shouldn't be 
allowed on the market at all.
    I look forward to hearing more from FDA and other witnesses 
on this today. Nevertheless, I understand that people may still 
want information about how their foods are produced. So let us 
look at the second concept of whether there is a way to give 
them meaningful and useful science-based information. On the 
one hand, I am concerned that people have the information they 
want or need. On the other hand, I am concerned that mandatory 
GE labeling could be inherently misleading. Mandatory labeling 
could lead consumers to believe that if the government is 
requiring a GE label, it must mean that GE foods are riskier or 
somehow fundamentally different from non-GE foods, and to date, 
scientists have concluded that they are not.
    Furthermore, given that up to 80 percent of packaged foods 
contain GE ingredients, if we require labels, most food on the 
shelves would have a label declaring the presence of GE 
ingredients. I am not sure what good that does us. Under our 
current system, if consumers want to avoid GE foods, they can. 
They can buy organic foods which, by law, cannot contain GE 
ingredients. Or they can search out the foods that 
manufacturers have certified and labeled as non-GE. That more 
targeted information may, in fact, be more useable, and I would 
like to hear what our witnesses think about that.
    Now let us turn to the third principle of preserving the 
ability of states to make decisions that are right for their 
citizens, absent a compelling policy reason to the contrary. 
Even if there is not a compelling reason to require GE labeling 
at the federal level, that doesn't necessarily mean Congress 
should tell Vermont and other states that they cannot require 
such labeling. I have always believed states should have the 
right to act in the best interests of their residents. And I 
want to hear from our industry witnesses why the Vermont 
legislation, and potentially similar legislation in other 
states, is so harmful to some legitimate public interest that 
Congress should override them. Absent a compelling reason 
otherwise, I support letting states make their own laws and 
govern themselves.
    I remain open to hearing the view of all of our witnesses 
today on these three points, and any other points pertaining to 
this issue. I think today's hearing will be very interesting 
and informative, and I thank the chairman for holding it.
    Mr. Pitts. Chair thanks the gentleman.
    That concludes the opening statements of the Members. As 
always, the written opening statements of the Members will be 
made a part of the record.
    I have a unanimous consent request here, a statement from 
the Corn Refiners Association, to enter into the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. We have two panels today, and I would like to 
call our first panel, and I will introduce him at this time. We 
have Mr. Michael Landa, Director, Center for Food Safety and 
Applied Nutrition of the U.S. Food and Drug Administration. 
Thank you for coming today. You will have 5 minutes to 
summarize your testimony. Your written testimony will be placed 
into the record.
    So at this point, Mr. Landa, you are recognized for 5 
minutes for your summary.

STATEMENT OF MICHAEL M. LANDA, DIRECTOR, CENTER FOR FOOD SAFETY 
 AND APPLIED NUTRITION, U.S. FOOD AND DRUG ADMINISTRATION (FDA)

    Mr. Landa. Good morning, Chairman Pitts, Ranking Member 
Pallone, and members of the subcommittee. I am Michael M. 
Landa, Director of the Center for Food Safety and Applied 
Nutrition at the Food and Drug Administration. Thank you for 
the opportunity to be here today to discuss FDA's regulatory 
program for genetically engineered, or GE, foods.
    Over the last 20 years, FDA has reviewed data and 
information on more than 150 plant-derived GE foods. These 
range from herbicide-tolerant soybeans to canola oil with a 
modified fatty acid profile. Based on our evaluations, we are 
confident that the GE foods in the U.S. marketplace today are 
as safe as their conventionally-bred counterparts. The 
selection and genetic improvement of plants for agricultural 
use has been going on for thousands of years.
    Mr. Pitts. Could you pull the mic a little closer to you 
please?
    Mr. Landa. Sorry.
    Mr. Pitts. Yes, thank you.
    Mr. Landa. That better?
    Mr. Pitts. That is better, thank you.
    Mr. Landa. Typically, plant breeding has involved cross-
breeding and hybridization. Many of the foods that are already 
common in our diet, such as hybrid corn or nectarines, are 
obtained from plant varieties that were developed using such 
conventional genetic techniques, but during the breeding 
process, undesirable traits, such as poor yield or poor disease 
resistance, may appear. These unwanted traits can often be 
eliminated through additional breeding and selective 
reproduction, but the process is painstaking and time-
consuming.
    Today, by inserting one or more specific genes into a 
plant, scientists are able to produce a plant with new, 
advantageous characteristics. These techniques give scientists 
the ability to isolate specific genes of interest, and 
introduce them and their corresponding traits into plants 
without introducing undesirable genes or traits. This important 
improvement over traditional plant breeding can reduce the time 
needed to develop a new variety, and expand the range of new 
proteins and other substances that can be introduced into 
plants.
    Any of these genetic modification techniques has the 
potential to change the composition of food in a manner 
relevant to food safety. FDA, however, has well-established 
scientific procedures for evaluating the safety of new foods, 
including any new substances in food, and our guidelines help 
developers address any safety concerns prior to marketing.
    FDA regulates the safety of all foods, including those 
derived from GE plants, under the Federal Food, Drug, and 
Cosmetic Act, to be called the Food and Drug Act. Foods 
developed from genetically-engineered plant varieties, such as 
fruits, vegetables, grains and their byproducts, are subject to 
the same safety requirements as foods derived from non-GE 
plants. The Agency relies primarily on two sections of the Food 
and Drug Act to ensure the safety of food and food ingredients 
produced by genetic engineering--the adulteration provisions in 
Section 402 of the Act, and the food additive provisions in 
Section 409.
    Food growers, manufacturers, and distributors are 
responsible for taking the steps necessary to ensure that their 
food products are safe. The law places primary responsibility 
for ensuring safety of food on industry. To help developers of 
food derived from GE plants comply with their obligations under 
the Food and Drug Act, and FDA's regulations, the Agency 
encourages them to participate in a voluntary consultation 
process prior to commercial distribution. Since the process was 
created, developers of GE plants have completed the process 
more than 100 times as they sought to introduce plants into the 
U.S. market. Typically, the consultation begins early in 
development when the Agency advises the company on what tests 
would be appropriate to assess the safety of the new food. 
After the studies are completed, a summary of the data 
reflecting safety and nutritional assessment are provided to 
FDA for its review. FDA expects developers of GE foods to 
analyze the composition of the foods from their new crop 
varieties to ensure that any changes compared to the foods' 
conventionally-derived counterpart are appropriately considered 
and addressed before marketing such foods. As part of our 
review and analysis, we consider whether any newly-introduced 
protein is likely to be allergenic or toxic, and whether levels 
of important nutrients or anti-nutrients have been changed in a 
way that is important to food safety or nutrition. We also 
consider whether any newly-introduced protein requires 
premarket approval as a food additive.
    Examples of the information evaluated by FDA include the 
name of the food and the crop from which it is derived, the 
source, identities, functions and stability of introduced 
genetic material, the purpose of the modification and its 
expected effect on the composition and characteristics of the 
food, the identity and function of any new substances 
introduced by the genetic material, a comparison of the 
composition and characteristics of the GE food to that of food 
derived from the parental variety, and information on whether 
the genetic modification altered the allergenic or toxic 
potential of the food.
    Let me just speak for a minute or so about FDA regulation 
of labeling. We regulate labeling including labeling of GE 
foods under the Food and Drug Act and our regulations. The Act 
establishes that a food is misbranded if its labeling is false 
or misleading in any particular. The Act also provides that 
labeling is misleading if it, one, fails to reveal facts that 
are material with respect to representations made or suggested 
in the labeling, or two, fails to reveal facts that are 
material with respect to consequences that may result from use 
of the food, whether that is a labeled use or a customary use.
    Historically, FDA has taken the position that the use of 
genetic engineering in the development of food is normally not, 
by itself, material information within the meaning of the Food 
and Drug Act. Federal courts have held that absent a material 
fact or a difference in food derived from a GE source, the Act 
does not require labeling indicating that the food has been 
developed through genetic engineering.
    In closing, let me reiterate that the consultation process 
for foods derived from GE plants is working well, and provides 
for a rigorous food safety evaluation of such foods. The Agency 
will continue to be vigilant, ensuring the safety and integrity 
of the food supply.
    And with that, I am happy to answer any questions.
    [The prepared statement of Mr. Landa follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    Mr. Pitts. The chair thanks the gentleman.
    We will now begin questioning. I will recognize myself 5 
minutes for that purpose.
    Mr. Landa, you state in your testimony that FDA has 
reviewed and evaluated data and information on over 150 
genetically-engineered foods. Based on these reviews and the 
data that has been compiled over the past 20 years, is the 
Agency more or less confident today in the safety of the 
underlying technology?
    Mr. Landa. I think its confidence remains strong. It has 
been and remains strong.
    Mr. Pitts. How do you know that genetically-engineered 
foods are no different in terms of safety than their 
conventional counterparts?
    Mr. Landa. Well, we know this based on the reviews we 
conduct. We are looking at the genetic material, we are looking 
at products of that material, new proteins, for example, at 
their safety. We look at potential toxicity and allergenicity. 
We look at chemical composition to see whether it is different 
from the conventional counterpart. We look at the safety of the 
whole food, if you will, and we look to see whether there are 
any differences in the nutrients that might require disclosure, 
for example.
    Mr. Pitts. And how long, typically, does your evaluation 
take?
    Mr. Landa. I will have to get back to you with detailed 
information, if I may.
    Mr. Pitts. All right. Are there any material differences 
between genetically-engineered ingredients and those derived 
from traditionally-bred crops?
    Mr. Landa. In general, no. We have found that there have 
not been such differences.
    Mr. Pitts. Does the FDA support the various state, 
legislative and ballot measures that would require the labeling 
of genetically-engineered foods, or would these initiatives 
interfere with FDA's authority over food production or 
labeling?
    Mr. Landa. We haven't reviewed the initiatives. We don't 
have any view about them and, therefore, we don't know whether 
they would interfere or not.
    Mr. Pitts. Would state-specific labeling requirements 
change anything as far as your evaluation is concerned?
    Mr. Landa. I do not believe so.
    Mr. Pitts. All right. Let me ask if there currently is a 
lack of consensus about the validity of the research and 
science behind the safety of foods derived from genetically-
engineered plant varieties.
    Mr. Landa. I think there is not. That is, I think there is 
a consensus.
    Mr. Pitts. There is a consensus----
    Mr. Landa. Yes.
    Mr. Pitts [continuing]. In the scientific community?
    All right, at this time, I will recognize Mr. Pallone 5 
minutes for his questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Landa, some who oppose mandatory GE labeling argue that 
such labeling would be inherently misleading. They argue that 
such a requirement would easily be taken to imply that the 
government considered food from GE plants to be so 
fundamentally different from food from non-GE plants as to 
warrant a special designation. And I guess I agree that if the 
GE designation had to look like a warning, it would be 
misleading. However, in the next panel, Mr. Faber testifies 
that his organization is not asking for anything like a warning 
label, but rather a modest disclosure on the back of the 
package. And I guess I would like to get your view based on 
your experience with food labeling whether it would be possible 
to design the size and wording of a mandatory GE designation in 
such a way as to be innocuous, in other words, those who look 
for it could find it, those who don't care about genetic 
engineering would have no reason to pay attention to it. I am 
not asking whether FDA could require such a label, nor whether 
you think any form of mandatory GE labeling would be 
appropriate from a scientific perspective, just that if 
Congress were to decide that the best way to avoid multiple 
state GE labeling requirements would be to impose a federal GE 
labeling requirement, do you think it would be possible to do 
so in a way that would be neutral and would not tarnish the 
product. And also as part of your answer, if you could describe 
the FDA's experience with irradiation labeling and whether we 
could learn from that experience.
    Mr. Landa. I certainly have not thought about the question 
you posed with respect to the nature of a statement about GE 
labeling. I don't think the Agency has considered that question 
because our focus has been on whether there is a difference----
    Mr. Pallone. The material. The material definition.
    Mr. Landa [continuing]. Allowing us to require disclosure. 
I think one way of looking at that question is whether there 
are data on similar efforts, or whether one could design a 
study to answer that question so that people would look at 
different formulations of labeling, and you would learn what 
they would take away from those different formulations.
    Mr. Pallone. I mean I--the reason I asked the question, I 
know you--I guess you don't really feel you can answer it at 
this point, is because, you know, a lot of people that approach 
me that would like the labeling requirement don't necessarily 
make the argument that there is a scientific difference, but 
just that they should--or that it is bad, but just that they 
should know.
    Mr. Landa. No, I understand, but one might, for example--
again, I think maybe one could develop different formulations 
and do experimental studies surrounding them, the types of 
studies that are typically done over the internet with panels 
that are set up, they are large numbers, to see what people 
would take away from a different mock label.
    Mr. Pallone. OK. Now, I know you say that the FDA's 
consultation process is--right now is obviously voluntary, but 
what does that mean in practice? In other words, if it is 
voluntary why would companies choose to use it? Do you have an 
estimate of how many manufacturers choose not to use it? In 
other words, what are the pros and cons of this voluntary 
approach?
    Mr. Landa. Well, we think for people intending to 
commercialize product, we think those people do come to us for 
several reasons. One, there is the basic statutory requirement 
on companies to market food that is safe. Another is that we 
learn a great deal from EPA and from APHIS and from others 
about what is going on in this area, which is another incentive 
for people also to come to us. And finally, we think that 
growers are going to be reluctant to use seeds where there 
isn't a no-questions letter from us because if, at the end of 
that growing season, they have a crop that turns out to be 
either unlawful or unmarketable because questions have arisen, 
better to start with a product that has been through the 
consultation process. So we think there are lots of drivers 
that make the voluntary process one that people do subscribe 
to, at least people who are intending to commercialize.
    Mr. Pallone. Now, you say that you--the FDA hasn't required 
the genetically-engineered label because they don't believe the 
information is material. Does the FDA have the authority under 
the Act to change its assessment that information is not 
material? Do you think you have the authority to do that?
    Mr. Landa. Yes, certainly in a given case. And let me also 
say, the policy I have been describing and we have been 
discussing, it has been in place for roughly 20 years, but we 
have been asked to change it. We have before us several citizen 
petitions asking to change our view on the law with respect to 
materiality, and asking us to change our view with respect, in 
some cases I think, to the facts. And we are considering those 
petitions. We haven't responded yet, but we certainly have the 
authority to change a position as long as the change is 
appropriately grounded in the science and interpretation of the 
law.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the vice chairman of the full committee, Mrs. 
Blackburn, 5 minutes for questions.
    Mrs. Blackburn. I thank you, Mr. Chairman.
    Mr. Landa, thank you so much for your time. I have to tell 
you, I find this an absolutely fascinating debate, and am so 
appreciative that you would take the time and the FDA would 
take the time to talk with us on it.
    I grew up in south Mississippi with a grandmother who, when 
she went to college at the turn of the century, the 19th 
century, chose to audit agriculture classes. So then buying a 
farm and with her savings from being a teacher, and married, 
she has five boys from--and then my mother, five more boys. Big 
farm. During the Depression, she helps feed our hometown. So 
being someone who enjoys growing things, as I was, and very 
active in 4H club, which I was, and going on to be a part of a 
crop judging team, I learned to appreciate what goes into 
having good-looking food, because we eat with our eyes. I also 
grew to appreciate yield per acre, that I would learn from my 
grandmother, and having foods that would be more drought-
resistant, that would take less chemicals, that would take less 
pesticides, things of that nature, and the importance of that 
so that you had a good-looking and good-tasting food product 
that did not, as readily and easily, spoil.
    So I come to this debate from that background, and today 
even in my district, I visited a lot of the farmers' markets, 
and every once in a while someone will come up and talk about 
genetically-engineered food or genetically-modified food, and I 
enjoy asking them what that means to them. And I have found it 
so fascinating that it means something different to nearly 
everyone that I talk to, because we don't have that federal 
standard, if you will. And I hope that you all at the FDA are 
going to be able to work with us on this. Basically, everything 
we eat is genetically-modified, whether it is corn or wheat or 
any variety of tomatoes, which were mentioned earlier, it all 
has been genetically modified. If you want to go back and eat 
original wheat or barley, it is not going to give you very much 
of a yield, and it is not going to be the desirable product 
that you are looking for today. So we have to realize that as a 
part of this debate.
    So moving forward, let us go back to Mr. Pallone's question 
on the labeling. I would love to hear from you what you all at 
the FDA, what your team thinks should be conveyed in those 
labels to the consumer, what should be there about health, 
about safety, and about nutritional content of those products?
    Mr. Landa. Well, the statute tells us as a general matter 
that labeling is not to be false or misleading. That is sort of 
the basic proposition. And since then, there have been many 
changes to the law, including NLEA, which has directed us to 
write the nutrition facts label or nutrition facts panel, which 
has information about macronutrients and micronutrients. And, 
in fact, we are in the process now of updating that label. We 
proposed earlier this year to do that, and we are reviewing 
comments on it.
    Mrs. Blackburn. And when do you anticipate having those 
recommendations?
    Mr. Landa. I would certainly hope that the Agency could 
issue final rules updating nutrition facts by 2016. It is a 
complicated--it is called informal rulemaking, which is less 
difficult than formal rulemaking, but it is still a----
    Mrs. Blackburn. OK.
    Mr. Landa [continuing]. Very resource-intensive process.
    Mrs. Blackburn. I am about to run out of time. I want to 
get to a couple of other things. I am certain you all go 
through reams of information on analyzing data on the GE foods, 
and I wonder how often do your FDA analysts go back in and 
request additional information when you have a submission?
    Mr. Landa. I don't know. I can't answer that, but we will 
get that information for you.
    Mrs. Blackburn. OK. Does the FDA distinguish foods based on 
the method of breeding or the material composition of the food?
    Mr. Landa. Not for labeling purposes, unless there is a 
material fact.
    Mrs. Blackburn. OK. Are you satisfied that your agency is 
capable of understanding genetic engineering and determining 
whether or not a plant is safe?
    Mr. Landa. Yes.
    Mrs. Blackburn. Thank you.
    I yield back.
    Mr. Pitts. Chair thanks the gentlelady.
    Now recognize the ranking member of the full committee, Mr. 
Waxman, 5 minutes for questions.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Landa, in many of the articles on GE foods, people 
claim that the science is unsettled, controversial or new, with 
the implication that there may be unknown risks and, therefore, 
consumers are justified in being uneasy with GE foods. And yet 
from your testimony, we get a different impression. However, 
while you point out that genetic engineering is just one of 
many techniques used in plant breeding, I don't think FDA has a 
consultation process for any of the others.
    How new is the science behind GE foods, and what are the 
risks from them, and if genetic engineering is not especially 
risky, why do you encourage companies to go through your 
consultation process prior to marketing foods from GE plants?
    Mr. Landa. I think it is largely that there certainly is 
some possibility, for example, of a material difference. I 
think we identified one with a product where there wasn't a 
safety issue, but there was a difference in how the food 
performed in the consumer's hands. I think it had to do with 
friability. And we have completed over 100 consultations. There 
have been a handful that have not gone to completion where we 
were asked to stop the review, or the submitter withdrew. I 
think in general, the process, which has been in place for some 
time, was one that enabled us to learn and also to build 
confidence, and we would hope to transmit some confidence in 
this technology.
    Mr. Waxman. Is this a new area of science?
    Mr. Landa. No. Certainly, it is decades old.
    Mr. Waxman. As you know, many consumers believe they have a 
right to know whether a food was manufactured using 
genetically-engineered ingredients, irrespective of all the 
science in the world showing them to be no different from non-
GE ingredients. I would like to understand more about such a 
requirement and how it would fit in with FDA's traditional 
stance toward labeling requirements if Congress were to respond 
to this consumer demand and pass a law requiring the label--
labeling of genetically-engineered foods.
    How would mandatory labeling of genetically-engineered 
foods compare with existing labeling requirements, such as to 
reveal the presence of allergens in a food, or that a food has 
been irradiated? Would FDA be concerned about a new law that 
requires the labeling of GE foods, and if so, why?
    Mr. Landa. There isn't any administration position on such 
legislation. It would be obviously new for us. We would 
implement it as best we could. I suppose the question it would 
raise would be what is sort of the limiting principle. If what 
animates this is right to know, the question then becomes what 
is it that people do not have a right to know on the food 
label, and I am not sure how one answers that question.
    Mr. Waxman. There are just some foods that are irradiated. 
Why would anybody irradiate their food? Why would a 
manufacturer want to irradiate food?
    Mr. Landa. For safety reasons.
    Mr. Waxman. To keep the food from spoiling?
    Mr. Landa. Spices. Spices are irradiated, for example.
    Mr. Waxman. OK. Now, is there any harm from that? Any----
    Mr. Landa. No.
    Mr. Waxman [continuing]. Consequences that are problematic?
    Mr. Landa. No.
    Mr. Waxman. Yet, we require labeling. Why do we require 
labeling on foods that have been irradiated?
    Mr. Landa. It has been thought that irradiation could as a 
process change some properties of the food and so that was the 
thinking behind that.
    Mr. Waxman. But there is no evidence of that?
    Mr. Landa. I would have to go look at what we said at the 
time we issued the labeling requirement.
    Mr. Waxman. Now, why is this any different? You don't think 
there is a problem. You said there may be a problem but you 
don't know of a problem. What is the difference between 
informing people that their spices have been irradiated if they 
want to know that information, even though you don't think it 
is particularly helpful for them to know it?
    Mr. Landa. I think at the time with irradiation, we thought 
that there was a possibility of a change in characteristics of 
the food which people would not know about. We do not think 
that is the case with genetic engineering.
    Mr. Waxman. Do you think we should remove the labels from 
irradiated foods?
    Mr. Landa. The Agency has issued a proposal to do that. It 
has not finalized that.
    Mr. Waxman. OK, thank you, Mr. Chairman.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman from Illinois, Mr. Shimkus, 5 
minutes for questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Thank you for being here. I--a question I have is, I 
understand the state debate, but does--do you know of any state 
that has the capability to do the research and the findings to 
the same standard as the FDA?
    Mr. Landa. I don't, but I wouldn't have any reason to know 
that one way or another.
    Mr. Shimkus. Yes. I can tell you I am from a big state of 
Illinois, and we can't do it. There may be one--maybe--well, 
maybe California has some capability, but my guess is smaller 
states, they don't have nearly the ability to do the research 
that you all do. And I think that is part of this whole should 
states be able to have their own labeling restrictions and 
requirements because, as we have found, it is really based upon 
emotion and not based upon a scientific evaluation.
    Let me ask about--do you distinguish foods based upon the 
method of breeding, or the material composition of the food?
    Mr. Landa. We don't require labeling based on method of 
production alone.
    Mr. Shimkus. Why not?
    Mr. Landa. Because we have found that it is not material to 
safety or nutritional composition.
    Mr. Shimkus. Yes, and I appreciate that. Let me--in the 
case of sugar, right, we--sugar processors require to label 
whether refined table sugar comes from--I am--I guess the 
questions is, are sugar processors required to label whether 
refined table sugar comes from a certain species or plant?
    Mr. Landa. I am sorry, I don't----
    Mr. Shimkus. So if you have--are we--you don't require fine 
table sugar to label whether it comes from sugar beets or from 
cane.
    Mr. Landa. No.
    Mr. Shimkus. Why?
    Mr. Landa. Again, I think it is a question of materiality, 
to safety or nutrition.
    Mr. Shimkus. So if we were--would the consumers be any--
would they get any benefit if that labeling requirement for 
fine table sugar also had a requirement, well, this is beet-
produced fine table sugar or sugar cane fine table sugar.
    Mr. Landa. Again, what we focus on is the attribute of the 
food as the consumer would----
    Mr. Shimkus. And----
    Mr. Landa [continuing]. Would eat it.
    Mr. Shimkus [continuing]. For the genetically-engineered 
ingredients in foods today, is there any evidence that they 
vary in their objective characteristics in any meaningful or 
uniform way?
    Mr. Landa. No, not as a class.
    Mr. Shimkus. Can you explain why FDA's regulatory focus is 
on the food or food product as opposed to the process in which 
it was grown?
    Mr. Landa. Because, of course, in the end, it is the food 
that we eat.
    Mr. Shimkus. Right. Yes, and I appreciate--I think you are 
going to keep getting the same questions from members here on 
trying to understand--you are Food and Drug Administration, you 
all come before us on a lot of different aspects. You are our 
trusted advisors. We respect the job that you do. I know this 
is a very difficult and emotional debate for some folks on both 
sides because it deals with some individual consumers, it deals 
with the agricultural community that many of us represent. We 
have to have an impartial, you know, observer based upon health 
and safety effects to the consuming public. We appreciate the 
work you do.
    Mr. Chairman, thank you, and I yield back.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentlelady from California, Mrs. Capps, 5 
minutes for questions.
    Mrs. Capps. I thank you, Mr. Chairman, and thank you, Mr. 
Landa, for your appearance here with us today, and your 
testimony.
    I understand that FDA's position that under the Food, Drug 
and Cosmetic Act, the breeding methods by which a plant was 
developed is not material information about food from that 
plant. However, in their testimony, Mr. Faber and 
Representative Webb point out that many consumers do believe 
that foods labeled as natural--in quotes, ``natural'', are not 
genetically engineered, and sometimes buy such foods because of 
that belief. They also say that many such foods do contain GE 
ingredients.
    I can understand FDA's reluctance to wade into the argument 
as to what constitutes natural, but if many consumers believe 
that the term natural implies non-GE, and are making purchasing 
choices based on that belief, shouldn't the use of that term on 
a food label be considered a representation that the food is, 
in fact, non-GE? I know that is kind of a packed question, and 
I am going to continue just for a little bit more to give you 
plenty to deal with. This is my only question, actually. And if 
so, wouldn't the use of the term natural on a food containing 
GE ingredients be, as the statute says, failing to reveal facts 
and material in light of such representation if it does not 
state that it contains GE ingredients? Gets convoluted. In 
other words, and this is the question, even though the use of 
genetic engineering may not be material information, per se, 
doesn't it become material information in those circumstances 
in which the rest of the labeling of the GE food implies that 
the food does not contain GE ingredients?
    If you can sort that out, kudos to you, but this is the 
topic I wish to hear from you. And take your time because for 
the next few minutes.
    Mr. Landa [continuing]. There is a short answer to this, 
which is that we have pending several citizen petitions related 
to the question of what is natural, including one going to the 
very question I think you are getting at which is, is the food 
that contains a genetically-engineered ingredient, or 
ingredient derived from a genetically-engineered plant, a food 
that may properly be labeled as natural. There is a big debate 
about that. We have been petitioned to say yes. I am sure we 
have been petitioned to say no. We have been petitioned to 
establish a definition for natural, and we are considering 
those petitions. That is really all I can say at the moment.
    Mrs. Capps. Is there any--can you shed any light on this 
topic for the sake of our constituents as to where you are 
going in your--I mean I agree, it is very confusing.
    Mr. Land. One possibility, and we have not committed to 
this, but to take you back a little bit, the Agency embarked on 
an effort to define natural years ago. That did not result in a 
codified definition. It resulted in a statement and a preamble 
that natural can't be either added or synthetic, I think was 
the language. We have been asked on many occasions to develop a 
definition. I personally have been asked on many occasions. I 
have always said that we really don't have the resources to do 
that.
    We now have petitions before us. I think if we decide to 
reconsider this issue, it will necessarily have to be a public 
process. Whether we would embark on rulemaking, which has to be 
a public process, or guidance, there will be some public 
process if we decide to revisit this.
    Mrs. Capps. Well, I actually applaud that. I think the 
public is already engaged, I believe that, and would be 
welcoming--this is my opinion now, but from what my 
constituents are telling me, that they are already engaged, and 
a signal from FDA that--maybe you don't have black-and-white 
kind of answers to give, that you are seriously considering 
this, and maybe that we can carry on this kind of conversation 
throughout the country. It appears to me the consumers are 
clearly confused by the current labeling system. I mean we can 
perhaps all agree on that; it is complicated today. And they 
are making purchasing decisions based on, sometimes I believe, 
misleading or unclear labeling. And I am not blaming, 
necessarily, here, but it leads to a state of confusion. And I 
hope that you can find the resources in FDA to take a broader 
look at what is happening with respect to consumers' 
experiences so that they can have confidence in this system 
that we have and work with you to strengthen the labeling 
system to reduce the kind of confusion that we are talking 
about.
    With that, I will yield back. Thank you.
    Mr. Landa. Thank you.
    Mr. Pitts. Chair thanks the gentlelady, and now recognizes 
the gentleman from Virginia, Mr. Griffith, 5 minutes for 
questions.
    Mr. Griffith. Thank you, Mr. Chairman.
    OK, I eat a fair number of odd foods, and a number of those 
are labeled non-GMO. Is there a distinction between genetically 
modified and genetically engineered?
    Mr. Landa. I think as a technical matter, GMO refers to an 
organism, as opposed to genetic engineering which we think of 
as having to do with sort of modern biotechnology.
    Mr. Griffith. OK. In that regard, one of the concerns that 
I have, and I want to know if it is a concern for you, is that 
I come from a family where just about half of us have some kind 
of food allergy. If you are changing proteins around and you 
have things that are, for the general public, generally 
recognized as safe, are you able in what you all do to be able 
to distinguish if a protein that someone may be allergic to has 
been added to a product which they may not know that protein 
has just been included?
    Mr. Landa. That is part of the evaluation process, and if 
there were to be an addition that might prompt an allergic 
reaction that one would not expect, we would require a label 
disclosure.
    Mr. Griffith. So you would pick out those things which 
people arehighly allergic to, or which there is a significant 
percentage of folks that have a problem with, and you say, OK, 
you can't put the strawberry ingredient into this tea?
    Mr. Landa. Or we would require disclosure.
    Mr. Griffith. Or disclosure.
    Mr. Landa. Most likely would be the----
    Mr. Griffith. And I apologize if I missed this in one of 
your earlier answers, are you all looking at the possibility 
of--for those people who may be concerned, saying or labeling a 
product as something that is, in fact, as opposed to saying it 
is genetically engineered or genetically modified in some way, 
having those companies that want to, obviously you pay more for 
it, but have some process where they can actually say we have 
used all products that are not genetically engineered or 
modified?
    Mr. Landa. We have had draft guidance since about 2001 on 
voluntary labeling. So there isn't any prohibition on a 
voluntary label that your food does not contain----
    Mr. Griffith. OK.
    Mr. Landa [continuing]. GE ingredients. So the basic 
requirement is that statement not be false or misleading.
    Mr. Griffith. OK. And I appreciate that. You indicated 
earlier that it was pretty much a consensus that this was not 
something that was dangerous, if I understood your testimony 
correctly, and yet I know there are a number of countries 
around the world that have concerns about products, and 
sometimes will ban our exports if they think that there has 
been some crosspollination or something. Can you explain why 
they are concerned?
    Mr. Landa. I think different countries have different 
regulatory systems. There are obviously different cultures with 
different attitudes towards different aspects of foods, from 
production to consumption to preparation and everything else.
    Mr. Griffith. Other than culture, have any of those 
countries had studies that indicated there was some danger to 
the general human----
    Mr. Landa. Not to my knowledge, no.
    Mr. Griffith. All right. I appreciate that. And I think you 
said earlier you are looking at finalizing some guidance by 
2016?
    Mr. Landa. The nutrition facts?
    Mr. Griffith. Yes, sir.
    Mr. Landa. Yes.
    Mr. Griffith. All right. And I am going to switch just 
briefly, because I have a little bit of time left, into a 
different subject but it is tangentially related, and that is, 
what do you do about the grocery stores that are fixing food 
and selling things, and they have to do nutrition facts, and 
then you get into the whole allergens and then the GE or GMO 
foods? How do you deal with all of that as a part for grocery 
stores that fix the food----
    Mr. Landa. The processed food is subject to nutrition 
facts.
    Mr. Griffith. Right.
    Mr. Landa. What we have called restaurant-type food made 
and sold in a grocery store is now subject, or will be when it 
becomes effective, to menu labeling requirements.
    Mr. Griffith. I will just tell you, I think that even 
though I am concerned about it, and I might not eat the food if 
I didn't know what was in it, I am not sure how a grocery store 
is going to be able to comply with that when they may be using 
all kinds of different ingredients, and somebody walks up and 
says can I have X, Y or Z, it may be easier for--like a 
McDonald's where they have certain ingredients and every one of 
them has a label, a grocery store may not have that capability.
    Mr. Landa. Well, we are talking about standard menu items.
    Mr. Griffith. Standard menu items, so if it is some kind of 
specialty item they would have an exemption?
    Mr. Landa. Right.
    Mr. Griffith. All right.
    Mr. Landa [continuing]. Again, the requirement is 20 or 
more establishments, a restaurant and similar retail 
establishments is the language in the statute, and it is 
standard menu items.
    Mr. Griffith. All right, I appreciate that.
    Thank you very much, and I yield back.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman, Mr. Butterfield, 5 minutes for 
questions.
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Let me just remark on the statement made by Mrs. Blackburn 
a few minutes ago about this being a fascinating debate. Mr. 
Chairman, this is certainly a fascinating debate by any 
measure.
    In my former life, I served as a trial judge down in North 
Carolina, and every day for 15 years I had to look at the 
evidence and had to decide the facts. That was my job 
description, and I did it for 15 years. And I have tried to do 
that in this debate. And I have read large amounts of well-
informed publications over the last several months, and I for 
one, I am just convinced that GE plants are as safe as any 
other foods.
    But, Mr. Landa, I need to interpose this question to you. 
Do you have any evidence that foods derived from GE plants are 
as safe as other foods? I have heard you mention it throughout 
your testimony, but is there any scintilla of evidence that 
would suggest that these foods are unsafe?
    Mr. Land. I I heard you correctly. Is there any evidence 
that suggeswant to make surets that these foods are unsafe?
    Mr. Butterfield. Yes. Yes. That GE foods are unsafe.
    Mr. Landa. Not to our knowledge, no.
    Mr. Butterfield. All right. And how long does your agency, 
and how large is the division that handles this task?
    Mr. Landa. Well, the office that handles that task has 
maybe 135 or 140 people, but those people also handle a variety 
of tasks related to food additives, generally recognized as 
safe substances.
    Mr. Butterfield. But these are not politicians, these are 
career employees at your agency?
    Mr. Landa. Correct.
    Mr. Butterfield. Yes. Have you encountered anyone, anyone 
who advocates a 50-state approach to mandatory labeling?
    Mr. Landa. I am not sure I----
    Mr. Butterfield. You have talked to a lot of people, both 
formally and informally, about this, and----
    Mr. Landa. Anyone who advocates----
    Mr. Butterfield. Who advocates a----
    Mr. Landa [continuing]. That we have 50 separate----
    Mr. Butterfield. Fifty separate sets----
    Mr. Landa [continuing]. Sets of requirements?
    Mr. Butterfield [continuing]. Of regulations, plus the 
District of Columbia.
    Mr. Landa. I have not.
    Mr. Butterfield. I happen to find it to be----
    Mr. Landa. I don't know that I have a reason to encounter 
such a person, but no.
    Mr. Butterfield. It seems to me illogical and irrational 
and I am wrong from time to time, but I don't see how that 
would ever work, even in California.
    I yield back.
    Mr. Pitts. Chair thanks the gentleman.
    Chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I am trying to sort out the science here. I have lots of 
passionate constituents who are very concerned about GE 
products. I have experts that we will hear on the next panel 
who have great scientific credentials themselves, who will 
argue about consumer information being provided about GE 
products.
    I want to follow up on another word. Mrs. Capps was talking 
about natural, I want to ask you about material difference. And 
you said that the FDA could change its view that GE status of 
food is not material, which it is--that is the position right 
now, there is no material difference, and that the Agency is 
evaluating citizens' petitions that report to do that. So can 
you elaborate on why the FDA has not believed this is a 
material difference, and have the courts said anything about 
it, what kind of different information might change your mind?
    Mr. Landa. Well, we haven't found any differences in 
relation to safety or nutritional composition. Again, 
considering these foods as a class, any differences in safety 
or nutritional composition, or any other attribute of the food.
    Ms. Schakowsky. Can I ask you one thing? What about food 
allergies? Since we are putting in a--into the DNA something 
from perhaps a peanut into something else.
    Mr. Landa. In that case we would require disclosure. That 
would be material.
    Ms. Schakowsky. And would that prevent, in this 
consultation process, from that particular formulation going to 
market?
    Mr. Landa. No. What would happen is there would be a 
disclosure of the allergic potential of the food.
    Ms. Schakowsky. I see.
    Mr. Landa. That would be a material fact.
    Ms. Schakowsky. OK, and a seed that--I know Mr. Pitts said 
you can use less pesticide. That is sometimes true, although 
the FDA has just approved use of a seed that would make it more 
tolerant of a lot more pesticide. Does the FDA have any 
concerns about that?
    Mr. Landa. I am not familiar with that matter, I am sorry.
    Ms. Schakowsky. 2.4-D and Glyphosate. Anyway, OK. So in 
material, meaning even in the peanut issue, then a disclosure 
would be required because of safety?
    Mr. Landa. Typically, with respect to allergens, yes. First 
of all, there is a 2004 statute that requires disclosure of 
what we call the big eight allergens, but if you were to find 
another allergen, typically, we would require disclosure of it 
rather than ban the food.
    Ms. Schakowsky. And who does the research? I have to tell 
you, my constituents who are against GMOs will say Monsanto, 
DuPont, and can we really trust these companies that benefit so 
much?
    Mr. Landa. The data that are supplied to us are supplied by 
the companies doing the consulting, and sometimes they will do 
the studies, sometimes they will pay to have the studies done. 
I will say that is true across all FDA-regulated products. FDA 
does research, but it does not do research on the scale that 
would be required to support voluntary submissions, much less 
marketing applications.
    Ms. Schakowsky. Let me ask one more question. Does the Food 
and Drug Administration have the authority to implement a 
mandatory premarket approval process of any food to ensure that 
it is safe for consumers?
    Mr. Landa. We proposed a number of years ago a mandatory 
notification program for the types of products we have been 
talking about this morning. That proposed rule is still in 
existence. We have not found the need to finalize it, given 
what we think is how well the voluntary program works, but that 
proposal necessarily maintained that we had the authority to 
establish a mandatory program.
    Ms. Schakowsky. I yield back. I can put some more questions 
in writing. Thank you.
    Mr. Pitts. Chair thanks the gentlelady.
    Just for clarification, when you say it requires 
disclosure, does that mean on a label?
    Mr. Landa. On a label. I am sorry, yes. Thank you for that 
question. Yes.
    Mr. Pitts. Yes. OK. Thank you.
    Gentleman, Mr. Matheson, is recognized 5 minutes for 
questions.
    Mr. Matheson. Well, thanks, Mr. Chairman.
    And, Mr. Landa, I appreciate you coming here today.
    You just said this with Mr. Butterfield, but I just want to 
be clear, from the FDA perspective to date, you have found no 
scientific evidence that there is a health and safety issue 
with genetically-engineered foods?
    Mr. Landa. That is correct.
    Mr. Matheson. OK. I appreciate that. If there is this 
consumer demand for wanting to know, if there is a producer of 
a non-GMO food in the organic industry, they can label their 
product as such that it is non-GMO, is that correct?
    Mr. Landa. So long as the labeling is not false or 
misleading, that is correct.
    Mr. Matheson. So if the marketplace wants this, there is a 
private sector opportunity for the organic food industry to 
provide that information to consumers if they so choose?
    Mr. Landa. That is correct.
    Mr. Matheson. Does the FDA have any regulatory authority 
over that type of labeling?
    Mr. Landa. It is the general authority that labeling must 
not be false or misleading.
    Mr. Matheson. How long has the FDA been involved in 
managing food labeling?
    Mr. Landa. Well, the false or misleading provision dates 
from either 1906 or 1938.
    Mr. Matheson. Long time.
    Mr. Landa [continuing]. I am not sure which.
    Mr. Matheson. We will stipulate it is a long time. And how 
is the FDA's role in terms of, if I am in the food industry, 
and there are a lot of different people in it, how does the 
FDA's role give signals to the food industry for how they do 
labeling? They look to you for guidance, they look to you for 
consistency, is that correct?
    Mr. Land. Correct. They look to the statute, they look to 
regulations we issue, they look to guidance we issue, and they 
certainly, when they have particular questions, companies will 
call our experts in labeling.
    Mr. Matheson. So how do your guidances work? How do you 
come up with those labeling guidances and how do they work?
    Mr. Landa. Typically, on a significant issue, we would 
issue what is called a draft guidance. We would call for 
comment on it. We would analyze the comments we receive, and 
issue it in final, with or without changes, or perhaps decide 
not to issue it at all, or to reissue it with substantial 
changes and calling for more comment.
    Mr. Matheson. And the food industry relies on that. That is 
where they get their direction for how they do labeling is from 
your guidances?
    Mr. Landa. First the statute, then the regulations----
    Mr. Matheson. Got you.
    Mr. Landa [continuing]. And then guidance, yes.
    Mr. Matheson. How do food manufacturers--I want to address 
this issue about a national system versus a 50-state patchwork 
system. How do food manufacturers, from the big guys to the 
little guys, how do they benefit from a national system?
    Mr. Landa. There is a benefit to uniformity, but I think 
the answer is that they are in a better position to tell you 
how much of a benefit that is to them than I am.
    Mr. Matheson. How do consumers benefit from a national 
system compared to 50 different sets of rules around our 
country?
    Mr. Landa. You see the same labeling for the same product--
--
    Mr. Matheson. There you go. People do cross state lines, 
don't they?
    Mr. Landa [continuing]. Wherever you purchase it.
    Mr. Matheson. Yes. Yes. Funny how that works. I go 2,000 
miles every week back and forth. Yes, so I think that I would 
suggest, not to answer for you, that you are going to confuse 
consumers if you have 50 different standards. That would be my 
suggestion.
    Let me ask you a question. How do you in the FDA resolve a 
situation if a product is mislabeled? What do you do if some 
manufacturer mislabels a product?
    Mr. Landa. Typically, we might call the manufacturer, we 
might issue what is called a warning letter----
    Mr. Matheson. Yes.
    Mr. Landa [continuing]. Depending on how serious we thought 
the infraction was. If the label were not corrected, ultimately 
we can, through the United States Department of Justice, seize 
the product that is misbranded because of a misleading label--
--
    Mr. Matheson. Right, so you have just----
    Mr. Landa [continuing]. And we can enjoin further 
distribution.
    Mr. Matheson. You have just defined, as the regulator in 
this industry for food labeling, you have just defined you have 
the tools in the toolbox you have to address situations or 
mislabeled, that is what I would suggest.
    There have been claims by some consumer groups that the FDA 
is too closely aligned with the industry and it can't be 
trusted. How would you respond to that criticism?
    Mr. Landa. I have been at FDA for almost 30 years. I work 
with people who have been there much longer, by the way. I 
believe, and my colleagues believe, that we are civil servants, 
that we are engaged in an honorable professional and an 
honorable activity. It does not mean we get every decision 
right any more than anyone on the planet gets every decision 
right, but we try to make decisions to the best of our ability 
based on what the science tells us, and based on the law and 
the regulations and sound policy.
    Mr. Matheson. Well, Mr. Landa, I appreciate that answer, 
and I thank you for your civil service. I think there are a lot 
of folks in the agencies who are trying to do the right thing, 
and appreciate your forthrightness in these questions today.
    I will yield back, Mr. Chairman.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman from Texas, Mr. Green, 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman, and Ranking Member 
Pallone for having the hearing today, and our witness for being 
here.
    Ensuring the safety of my constituents has always continued 
to be the top priority as a member of Congress, and I hope that 
your testimony today, we can come to a greater understanding of 
the vital role that bioengineering plays in our food supply and 
the economy.
    Mr. Landa, thank you for taking your time to be here, and 
like my colleagues, we appreciate your 30 years of service to 
the FDA. I find this issue, as heated as it is, often leads to 
passionate claims, and I hope your years of experience at FDA 
can shed some light on the science of genetically modified 
organisms, and the safety process behind their approval.
    How many new plants are reviewed by the FDA each year, and 
how much time does it take to conduct those reviews?
    Mr. Landa. We will have to get back to you on that.
    Mr. Green. OK.
    Mr. Landa. The number of completed reviews is about now, I 
think, 103. I think in five cases submissions were withdrawn or 
people asked us to cease the review. We will get back to you 
on----
    Mr. Green. OK.
    Mr. Landa [continuing]. Yearly figures and average times.
    Mr. Green. OK. Do you believe changing from the voluntary 
reviews to mandatory reviews would change the number of reviews 
performed by the FDA each year?
    Mr. Landa. I don't know, but I don't see why it would.
    Mr. Green. OK. A coordinated frame work was developed by 
the White House Office of Science and Technology Policy to 
leverage the regulatory safety expertise present in the Federal 
Government agencies like the FDA. In the 30 years that the 
Agency has been part of this, are you satisfied that your 
agency is capable of understanding genetic engineering and 
determining whether or not a plant is safe?
    Mr. Landa. Yes.
    Mr. Green. Do you feel the FDA has the staff and 
capabilities to be the voice of authority when it comes to GMO 
safety?
    Mr. Landa. In connection with foods in my center, yes.
    Mr. Green. Food safety. Do you feel that the coordinated 
frame work requires adequate safeguards for consumer health and 
safety, and gives companies the regulatory certainty they need 
to develop new products?
    Mr. Landa. Yes.
    Mr. Green. Has a GMO plant been deemed unsafe in the past 
voluntary review process?
    Mr. Landa. I am sorry, I didn't----
    Mr. Green. Has a GMO plant been deemed unsafe in the past 
voluntary review processes?
    Mr. Landa. Not that I am aware of.
    Mr. Green. OK. Was a safety issue due--if it did, and it 
hasn't been, but is it due to the genetic engineering or is 
other factors that you look for when you are inspecting them?
    Mr. Landa. Again, I am not aware of any consultation that 
has resulted in a finding of lack of safety. The ones we have 
completed, we obviously have concluded we don't have any 
questions. There were a handful that did not go to completion. 
They were either withdrawn or we were asked to stop the review, 
and I simply don't know the details of the reasons.
    Mr. Green. What happens when you are asked to stop the 
review?
    Mr. Landa. We stop the review and the products do not go to 
market.
    Mr. Green. OK. So by just stopping your review, they don't 
go to market, OK. So effectively, you are doing what a 
regulator is supposed to do.
    Was the frame work rooted in congressional enactments like 
the Federal Food, Drug, and Cosmetic Act, Federal Meat 
Inspection Act, the Federal Insecticide, Fungicide, and 
Rodenticide Act, and do you feel that these statutes all, to 
some extent, preempt state requirements?
    Mr. Landa. It varies enormously across statutes. I simply 
can't answer that question.
    Mr. Green. And have each of these statutes, including the 
one from 1906, been instrumental in consumer protection?
    Mr. Landa. I can speak to the Food and Drug Act. I think 
the answer to the question is yes. It dates from 1906, was 
amended in 1938. Multiple, multiple times since then. I think 
in order to protect and promote the public health.
    Mr. Green. Do you have any suggestions on how we might look 
at some of these Acts and make your job more effective? You can 
get back to us if you want because I know--because that is our 
job is, if you don't have----
    Mr. Landa. We are certainly happy to----
    Mr. Green [continuing]. The tools to do it----
    Mr. Landa [continuing]. Provide technical assistance 
whenever you ask us to do that.
    Mr. Green. OK. Thank you.
    And, Mr. Chairman, I will yield back my time.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman from Maryland, Mr. Sarbanes, 5 
minutes for questions.
    Mr. Sarbanes. Thank you.
    Thank you, Mr. Landa. This is kind of a random question, 
just picking up on your allergy discussion. Presumably, I mean 
now you were suggesting that most ingredients, to which there 
is an allergy of any significance, you require that that be 
disclosed, right?
    Mr. Landa. Congress required it in 2004.
    Mr. Sarbanes. OK, but FDA would determine at some point 
that if the number of people affected by that ingredient, in 
terms of an allergy, reached a certain percentage of the 
population or something, then it would flip into a banning of 
the ingredient? Like sort of where is that line? Just----
    Mr. Landa. No, it is not banning, it is a disclosure 
requirement. Disclosure in the labeling, as the chairman was 
reminding me earlier, so that if we were to conclude that a 
food ingredient that is not on the list in the 2004 statute, 
that--met a certain threshold, and I can't answer what that 
threshold is in terms of percentage of population, we would 
require a disclosure of it on the label.
    Mr. Sarbanes. So you are talking about meeting a certain 
threshold in terms of requiring disclosure. I am asking you 
whether there is a threshold that one might meet that would 
suggest that----
    Mr. Landa. That we would ban it?
    Mr. Sarbanes [continuing]. You just ban it. I mean if 95 
percent of the population is allergic to a certain ingredient--
--
    Mr. Landa. Of course.
    Mr. Sarbanes. OK.
    Mr. Landa. Let me give you an example. The oldest 
adulteration provision in the law says, among other things, if 
a food bears or contains a substance that renders the food 
ordinarily injurious to health, the food is adulterated. And if 
it is adulterated, it is prohibited from interstate commerce. 
So sure, of course, if there was an ingredient that caused 
illness in 90 percent of the population, people who ate the 
food containing the ingredient, we would ban the ingredient.
    Mr. Sarbanes. All right.
    Mr. Landa. I am sorry. I thought you were sort of----
    Mr. Sarbanes. Right.
    Mr. Landa [continuing]. Trying to get at the disclosure 
question.
    Mr. Sarbanes. I got you. So let me switch. I am curious 
about when the industry has to go change labels in response to, 
say, some consultation exercise where everybody realizes that 
that is the right thing to do, or something more prescriptive 
that you require--well, first of all, is it the case that these 
labels get created and they are sort of static for extended 
periods of time, or in your experience, is labeling constantly 
being revised and updated, both with respect to content 
potentially, but also just in terms of the form of it, the way 
it looks on packaging and all of this?
    Mr. Landa. I really don't know.
    Mr. Sarbanes. Yes.
    Mr. Landa. I am just not familiar enough with industry 
practice----
    Mr. Sarbanes. Can you----
    Mr. Landa [continuing]. To answer that question.
    Mr. Sarbanes. In your 30 years, when was the last time that 
you can remember that something the FDA did, or some 
realization that the food industry came to, resulted in a 
significant, across-the-board change in labeling?
    Mr. Landa. Well, the one that comes immediately to mind is 
nutrition facts----
    Mr. Sarbanes. Yes.
    Mr. Landa [continuing]. Which is a regulation that the 
heart of which is now I guess about 20 years old. We required 
disclosure of trans fat, 8, 9----
    Mr. Sarbanes. So that was pretty significant.
    Mr. Landa [continuing]. Eight, 9, 10 years ago, as I 
mentioned earlier----
    Mr. Sarbanes. Yes.
    Mr. Landa [continuing]. With the revising of nutrition 
facts.
    Mr. Sarbanes. So if you revise what is required in the 
nutrition fact panel in this rulemaking period between now and 
2016, or whatever it was and you decide there are some 
additional things that ought to be in there, then that would 
cut across the entire food industry in a significant way in 
terms of revising its labels, right?
    Mr. Landa. Correct.
    Mr. Sarbanes. Thank you.
    Mr. Pitts. Gentleman's time has expired.
    The chair recognizes gentleman, Mr. Pompeo, 5 minutes for 
questions.
    Mr. Pompeo. Great, thank you.
    Thank you, Mr. Landa, for being here today. Thanks for your 
30 years of service. I understand you are closer to the end of 
your service than the beginning at this point, and----
    Mr. Landa. Yes, thank you.
    Mr. Pompeo [continuing]. And thank you for your good work. 
Thanks for your testimony this morning too. It has been 
interesting to watch. I think lots of folks watching this 
hearing this morning have been surprised by the certainty you 
are expressing around the science. You used the word initially 
that there is a consensus. I thought I would try and parse into 
that just a little bit more.
    So when you--I have heard consensus, and that can be 70/30 
or 80/20 or 90/10, where--tell me how much science there is 
that would refute your position with respect to the materiality 
of genetically engineered foods being safe.
    Mr. Landa. We do not believe, again, as a class that there 
is any question about safety, based on the reviews we have 
done.
    Mr. Pompeo. And that would include just--go ahead.
    Mr. Landa. There are obviously people, scientists, who 
differ with that point of view. I don't know how many of them 
there are.
    Mr. Pompeo. But it is a tiny fraction.
    Mr. Landa. It certainly is.
    Mr. Pompeo. And not folks that the FDA, at least, gives 
significant credit to, certainly enough that you would change 
your view with respect to the safety of this food. You all have 
been very decisive.
    Mr. Landa. To date, we have seen nothing to change the view 
that we have had for a number of years now.
    Mr. Pompeo. And that would include--there were questions 
about what other countries have done----
    Mr. Landa. Yes.
    Mr. Pompeo [continuing]. And how their regulatory practice 
would include studies performed all across the world as well.
    Mr. Landa. That is correct.
    Mr. Pompeo. I have heard some of my colleagues talk about a 
patchwork of 50 sets of rules and what that might do. Just so 
we are all clear, it wouldn't just be 50 sets of rules, it is 
potentially thousands of sets of rules; cities, counties, 
townships, neighborhood associations. One--the mind reels with 
respect to folks who might want to confirm their theory of a 
right to know through some sort of statutory or municipal rule. 
Tell me what you think that complexity would do the safety of 
the food supply chain.
    Mr. Landa. I don't know that it would have an effect on 
safety.
    Mr. Pompeo. Right the confusion consumers--we were talking 
about this, Mr. Matheson, he said he had to go 2,000 miles. You 
might only have to go 2 miles to pass into a city that had a 
different set of rules. I think there would be massive 
confusion, and the impact that that would have on consumers' 
ability to understand what they were consuming would be pretty 
significant.
    Mr. Landa. I suppose it could be. My point was that the 
underlying safety of the food would not be----
    Mr. Pompeo. Wouldn't change. Absolutely.
    You have talked a bit about your premarket consultation 
process. Today you said that most of the folks are--entering 
this into commercial service have provided that for you. You 
said you have gone through 100. A few have been withdrawn. I 
want to make sure, no one has run through the stop sign today 
where FDA has said, hey, we have a question or a concern, and 
they have said, good for you, we still want to introduce this 
product to the marketplace.
    Mr. Landa. That is correct.
    Mr. Pompeo. No one has run through the stop sign. It is----
    Mr. Landa. That is correct.
    Mr. Pompeo [continuing]. Not your expectation that anyone 
ever would because it would be very difficult for a 
commercialized food product to have run through an FDA letter 
that says, hey, we think we have a health or safety issue.
    Mr. Landa. That is our view, yes.
    Mr. Pompeo. You talked about petitions for--and actually, 
we are going to give you another one if I get this Bill passed 
into law, this law contains a provision which would require the 
FDA, within 24 months, to propose a regulation with respect to 
natural. I agree with some of my colleagues, frankly, on both 
sides of the aisle that I think we ought to clear that up so 
that consumers have a good idea what that really means. I 
understand the difficulty of that task and why you all have not 
come to fruition on that yet, but know that if we are 
successful in getting this particular Bill passed, you will get 
to be successful in your endeavor as well.
    So there have been proposals in some cities and some states 
about labeling for genetically-engineered products. Have any of 
those folks come to you or to the FDA to ask for your wisdom 
about what that label ought to look like, or about the safety 
or science behind genetically-engineered foods?
    Mr. Landa. Not that I am aware of.
    Mr. Pompeo. So to the best of your knowledge, none of the 
states have come to you to say, hey, what do you--what does the 
FDA think about this?
    Mr. Landa. Not that I am aware of. It is certainly 
conceivable that someone from----
    Mr. Pompeo. Sure.
    Mr. Landa [continuing]. A state would have come somewhere 
in the agency, but not that I am aware of.
    Mr. Pompeo. And I guess my last question is, this Bill 
proposes that we would make the review process at FDA mandatory 
as opposed to voluntary. Assuming that we provide the resources 
to the FDA, such that they can handle all of the requests for 
review, do you think that is an improvement, that is, do you 
think it is the case that each of these products ought to be 
submitted for FDA review before commercialization?
    Mr. Landa. Yes, and we think that is happening now.
    Mr. Pompeo. Right. Thank you.
    I yield back, Mr. Chairman.
    Mr. Pitts. Chair thanks the gentleman.
    That concludes the questions of the members who are 
present. I am sure we will have follow-up questions, other 
questions from members. We will submit those to you in writing. 
We ask that you please respond promptly. Thank you very much 
for coming this morning.
    We are going to take, while the staff sets up the second 
panel, a 3-minute recess. The subcommittee is in recess.
    [Recess]
    Mr. Pitts. The subcommittee will come to order. We will ask 
our guests to please take their seats, and I will introduce the 
second panel at this time.
    First of all, Dr. Alison Van Eenennaam, Cooperative 
Extension Specialist in Animal Genomics and Biotechnology, 
Department of Animal Science, from the University of California 
Davis. Secondly, Mr. Scott Faber, Senior Vice President of 
Government Affairs for the Environmental Working Group. 
Representative Kate Webb, Assistant Majority Leader in the 
Vermont House of Representatives. Ms. Stacey Forshee, the Fifth 
District Director of the Kansas Farm Bureau. And finally, Mr. 
Tom Dempsey, President and CEO of the Snack Food Association.
    Thank you all for coming. We appreciate your patience. You 
will each have 5 minutes to summarize your testimony. Your 
written testimony will be made a part of the record.
    So, Dr. Van Eenennaam, I think is the way you pronounce 
your name, right? I am sorry for the mispronunciation. We will 
start with you. You are recognized for 5 minutes for your 
summary.

    STATEMENTS OF ALISON VAN EENENNAAM, PH.D., COOPERATIVE 
   EXTENSION SPECIALIST, ANIMAL GENOMICS AND BIOTECHNOLOGY, 
DEPARTMENT OF ANIMAL SCIENCE, UNIVERSITY OF CALIFORNIA, DAVIS; 
   SCOTT FABER, SENIOR VICE PRESIDENT OF GOVERNMENT AFFAIRS, 
    ENVIRONMENTAL WORKING GROUP; REPRESENTATIVE KATE WEBB, 
 ASSISTANT MAJORITY LEADER, VERMONT HOUSE OF REPRESENTATIVES; 
 STACEY FORSHEE, FIFTH DISTRICT DIRECTOR, KANSAS FARM BUREAU; 
   AND TOM DEMPSEY, PRESIDENT AND CEO, SNACK FOOD ASSOCIATION

            STATEMENT OF ALISON VAN EENENNAAM, PH.D.

    Ms. Van Eenennaam. All right. Good morning, Mr. Chairman, 
and members of the subcommittee. My name is Alison Van 
Eenennaam, and I am a biotechnology and genomics cooperative 
extension specialist at the University of California in Davis, 
and I appreciate the opportunity to speak on this topic here 
today.
    I work in the public sector as a scientist performing 
research and education on biotechnology, and one of the reasons 
I am testifying here today is that I was the taskforce chair 
and the lead author of the CAST Issue Paper number 54, 
entitled, The Potential Impacts and--of Mandatory Labeling for 
Genetically-Engineered Food in the United States, that was 
released in April of this year, and it is included as an 
attachment to this testimony. And it basically explores the 
scientific, legal and economic aspects of requiring food 
labeling in the United States, based on the use of a breeding 
method, that is, genetic engineering, rather than on some 
specific attribute of the food product itself. And it also 
looks at the implications of state versus national labeling 
laws, and the potential economic impacts, and so I think it is 
very germane to today's discussion.
    As a scientist speaking here today, I do want to clarify 
that GE food, commonly, but less precisely, referred to as 
genetically-modified food, is food derived from crops produced 
using a breeding method, based on the movement of useful genes 
from one species into another using recombinant DNA technology. 
This method is used routinely in medicine, and many 
pharmaceuticals such as insulin and food processing aids, such 
as renin used in cheese production, have been made by GE 
microbes.
    Although most commercialized crops that have been developed 
using GE thus far have been made to resist insects or 
herbicides, this breeding method can be used for many purposes. 
And public sector scientists in Hawaii and New York, for 
example, use GE to produce a virus-resistant papaya, a papaya 
that virtually saved the Hawaiian papaya industry. Other 
introductions include drought-tolerant corn, virus-resistant 
squash, and consumer traits like a non-browning apple, a low-
acrylamide potato, and crops that produce improved oils for 
nutrition.
    Land grant university researches in California, Florida, 
and Texas are working to use genetic engineering to develop 
oranges that are resistant to Citrus Greening Disease, 
something that is devastating the Florida orange industry, and 
grape varieties that are resistant to Pierce's Disease.
    In New York, researchers are using a wheat gene to develop 
an American chestnut tree that is resistant to the imported 
chestnut blight. These disease-resistant GE applications focus 
on controlling disease with genetics rather than with 
chemicals, and importantly, they don't involve the use of 
chemical pesticides, an issue that often gets conflated with GE 
as a breeding method.
    In 2013, genetically-engineered crops were cultivated 
worldwide by 18 million farmers, and in the United States, GE 
varieties were planted on 95 percent of sugar beet acreage, 93 
percent of soy, and over 90 percent of both cotton and corn 
acreage.
    What has been the impact of this widespread adoption? As a 
scientist, I look to the peer reviewed independent literature, 
especially meta-analyses and review articles that present a 
summary of many independent studies. In 2014, German university 
professors published a comprehensive analysis of 147 studies 
that have assessed the impact of the adoption of genetically-
engineered crops. They found the benefits were significant and, 
in summary, on average, GE technology adoption reduced chemical 
pesticide use by 37 percent, increased crop yields by 22 
percent, and increased farmer profits by 68 percent. This would 
explain their widespread adoption by farmers globally.
    As a result of this widespread use in American agriculture, 
many food products in the United States include ingredients 
that might be from corn oil or sugar that have been derived 
from GE crop varieties. And it has been said before, it has 
been estimated 70 to 80 percent of processed foods likely 
contain such ingredients.
    Importantly, many highly-processed ingredients, such as 
sugar and oil, contain no detectable traces of DNA or protein, 
and hence, there is no way to test these refined products to 
determine their genetic origin; meaning, labeling of these 
products would require entire supply chain tracking and 
segregation to keep track of the products derived from 
genetically-engineered crops, a very expensive and complicated 
proposition.
    There is a broad scientific consensus about the safety of 
food produced from GE crop varieties, and solid data to support 
that consensus. A 2013 review article, written by independent 
Italian public sector scientists, reviewed over 1,700 safety 
records of GE crop safety published this past decade, and 
concluded that the scientific research conducted so far has not 
detected any significant hazards directly connected with the 
use of GE crops.
    The American Association for the Advancement of Science, 
the world's largest and most prestigious scientific society, 
stated in 2012 the science is quite clear; crop improvement by 
the modern molecular techniques of biotechnology is safe. The 
World Health Organization, the American Medical Association, 
the U.S. National Academy of Sciences, the British Royal 
Society, and every other major scientific body and regulatory 
agency in the world that has examined the evidence has come to 
the same conclusion.
    To date, no material differences in composition or safety 
of commercialized crops developed using GE has been identified 
that would justify a label based on the use of GE as a breeding 
method in the development of that crop variety. While this 
conclusion will not satisfy those who consider the insertion or 
manipulation of genes in a laboratory a material difference, 
per se, the science of food safety does not support mandatory 
process-based labeling of GE food and, by extension, is not 
required by the Food and Drug Administration.
    Thank you for the opportunity to speak here this morning, 
and I would be pleased to take questions from the subcommittee.
    [The prepared statement of Ms. Van Eenennaam follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Mr. Pitts. The chair thanks the gentlelady.
    Now recognize Mr. Faber 5 minutes for his opening 
statement.

                    STATEMENT OF SCOTT FABER

    Mr. Faber. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Pallone, members of the committee, thank you for the 
opportunity to testify. First, let me thank you for the 
tremendous work you and your staff performed on the Sunscreen 
Innovation Act. We greatly appreciate your work on that 
important piece of legislation. And let me thank you for 
dedicating your time to this important issue. As you can tell, 
people are incredibly passionate about their food.
    Consumers simply want the right to know what is in their 
food and how it is produced. More than 90 percent of consumers, 
regardless of age, gender, income, or even party affiliation, 
routinely tell pollsters that they want--simply want the right 
to know what is in their food. But this isn't simply a question 
of right to know. It is also a question of consumer confusion. 
As Mrs. Capps mentioned earlier, misleading claims like natural 
claims have led to significant consumer confusion. Roughly 60 
percent of consumers, when buying a package with a natural 
claim, believe that all natural foods are GMO-free. And we 
believe that a factual, informative, nonjudgmental disclosure 
on the back of the package would help address this confusion.
    Now, let me be very, very clear. We are not seeking a 
warning of any kind; we are simply seeking a factual, 
nonjudgmental disclosure on the back of the package, and we are 
confident, as Mr. Pallone suggested earlier, that food 
companies, farmers, FDA, consumer groups can work together to 
craft a disclosure that provides consumers basic information 
without rendering a judgment on the technology.
    And fortunately, FDA has the authority to require such a 
disclosure, and as Mr. Waxman alluded to earlier, has used this 
authority in the past. And that is fortunate because we would 
greatly, greatly prefer a national GMO labeling solution. But 
in the absence of leadership from FDA, we believe that states 
should and can act or require a mandatory disclosure. Congress 
has long recognized a role for the states, a leading role for 
the states, in food labeling, and that is why the NLEA was 
carefully crafted to not preempt state labeling laws, such as 
the GMO disclosure laws that have been passed by states like 
Vermont.
    Now, you have certainly heard arguments made today, and 
will hear more arguments made by this panel, that GMO labeling 
will increase food prices, but you don't have to work for the 
Grocery Manufacturers Association or work for the food industry 
to know that food companies change their labels all the time to 
highlight new claims or new innovations.
    You will also hear today that GMO labeling will create 
costly new farm and food--the need for costly new farm and food 
segregation systems, but those systems have been in place for 
decades, to address allergens and to meet growing demand for 
non-GMO and organic choices, all the way from the farm to the 
elevator, to the processor, to the retailer. In fact, the snack 
food industry has launched more non-GMO project offerings in 
the last decade than any other segment of the food industry.
    You will also hear--and also have heard, and will hear 
again, that we need GMO crops to feed the world. First, let me 
say, no one, no one is seeking a ban on GMO crops, and let me 
point out also that many farm groups, including the National 
Farmers Union, support mandatory GMO labeling. But it is also 
worth noting that we have run the experiment for the last 20 
years, and so far yields of conventional crops have kept pace 
with yields of GE crops.
    Now, I agree with testimony you will hear from Ms. Forshee 
that farmers should have choices, but so should consumers. We 
need a national GMO labeling system that works for farmers, 
that works for food companies, but that also works for 
consumers. Unfortunately, H.R. 4432 does not provide a national 
mandatory labeling system. In fact, H.R. 4432 narrows FDA's 
ability to work with us, to work with farmers, to work with the 
food industry to craft such a system. It fails to restrict the 
misleading natural claims that have fueled so much consumer 
confusion, and it preempts state laws that are ultimately 
designed to protect consumers from this confusion.
    Mr. Chairman, people simply want to know what is in their 
food, they want to be able to make choices for their families, 
and I hope that you will work with us to give consumers the 
right to know whether or not their food contains genetically-
modified food ingredients.
    Thank you.
    [The prepared statement of Mr. Faber follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize Representative Webb 5 minutes for opening 
statement.

                     STATEMENT OF KATE WEBB

    Ms. Webb. Thank you, Mr. Chair, and committee. My name is 
Kate Webb. I am a Representative and Assistant Majority Leader 
from the good state of Vermont, and I was the lead sponsor on 
Act 120, a law that simply gives consumers the right to know if 
the food they purchase in Vermont is genetically engineered. 
The law is at risk should H.R. 4322 become law. Because Vermont 
is involved in litigation regarding this very issue, I want to 
be clear that I am not a lawyer, not a scientist, and not here 
as a representative of my state or my government. I am here as 
a Vermont citizen to tell you of the importance of this right 
to the citizens of my state, and other states whose citizens 
seek this simple request for transparency.
    Vermont's Act 120, an act relating to the labeling of foods 
produced with genetic engineering, was signed into law this May 
to great fanfare and celebration on our State House steps. This 
Bill grew from grassroot efforts of tens of thousands of 
Vermonters seeking to have a right to make an informed choice 
about the food they purchase. This desire was not limited to a 
handful of Vermonters. Survey upon survey has shown that more 
than 75 percent of Vermonters were in favor of such labeling.
    I personally became involved in this legislation in 2012, 
and over the next 3 years, we developed draft legislation to 
gain the fundamental right to know how our food is produced; 
drafts that traveled through six legislative committees who 
received testimony from over 100 people, including scientists, 
lawyers, academics, consumers, manufacturers, and food 
producers on both sides of the issue. Act 120, in its final 
form, is the result of many hours, weeks and years of work, and 
it passed the Senate, I want you to hear this, the Senate on a 
vote of 28 to 2. It passed the House on a vote of 114 to 30. 
These are large numbers.
    Why is it that Vermont wants this right? It is about 
transparency and truth in labeling. Even though the World 
Health Organization defines genetically-modified food as foods 
derived from organisms whose genetic material has been modified 
in a way that does not occur naturally. And Monsanto defines 
genetically-engineered organisms as plants or animals that have 
had their genetic makeup altered to exhibit traits that are not 
naturally theirs. However, many genetically-engineered products 
continue to carry the word natural, or variations of this word, 
on their labels. I believe this is misleading, and Act 120 
would prohibit the use of this term for products produced or 
partially produced with genetic engineering.
    Because GE is a relatively new and evolving science, 
consumers concerned about unintentional environmental and 
health effects want the right to exercise this precaution.
    And finally, we heard testimony that without labeling, 
members of many religious communities could not tell if 
products they purchased violated their faith's dietary 
prohibitions. There is nothing in our law that restricts anyone 
from producing or selling genetically-engineered products. 
There is nothing in our law that says that it is good or bad. 
Business and farming will go on as business and farming does.
    One of the great strengths of a capitalist democracy is not 
only do we cast a vote at the polls, we also do by--so by 
selecting the products we purchase. Transparency allows us to 
see how things work, be it government, financial institutions 
or the food we eat. This transparency allows us to make 
informed decisions, and ultimately build trust.
    States have historically, and continue today, to lead the 
way on food labeling. Forty-one states regulated the use of 
sell-by and use-by data on--dates on food labels. Before 
Congress mandated our current federal county of origin--country 
of origin label, which also doesn't state whether it is good or 
bad, nor does our Bill, these requirements existed in Alabama, 
Mississippi and Arkansas, who required labeling disclosure 
about the source and production of catfish. And many states 
regulate the labeling of cottage foods. I believe Tennessee and 
Mississippi do this. And many states are already regulating the 
labeling of bottled water before the FDA set standards of 
identity.
    While the USDA and AMS issue voluntary grading standards 
for some agricultural products, many states also issue these 
grading labels. Vermont's legislature did so with maple syrup 
this year.
    Mr. Chairman, our state is already involved in litigation 
with the Grocery Manufacturers Association, among others, and 
if this will help to answer if Vermont and any other state has 
the constitutional right to label.
    I urge you to defeat H.R. 4432 and promote federal 
labeling. Thank you.
    [The prepared statement of Ms. Webb follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Mr. Pitts. Chair thanks the gentlelady.
    Ms. Forshee, you are recognized 5 minutes for your opening 
statement.

                  STATEMENT OF STACEY FORSHEE

    Ms. Forshee. Chairman Pitts and Ranking Member Pallone, and 
all the other committee members, it is an honor and privilege 
to sit in front of you today. My name is Stacey Forshee. My 
husband, David, and I are fifth generations to farm in Cloud 
County, Kansas, in north central Kansas. We live in--near the 
small community of Delphos, and just to put it in perspective, 
I am 20 miles away from my nearest grocery store.
    I am a member of the Cloud County Farm Bureau Association. 
I serve on the Board of Directors for Kansas Farm Bureau for a 
10-county area. I am also a part of the Cloud County Community 
College Ag Advisory Board, CloudCorp Board of Directors, and I 
also sit on my Concordia High School Booster Club Board. But my 
most important job is as wife of my husband, David, for 24 
years, who I farm right alongside, as well as my--our children, 
Kendra, Lauren and Wyatt. But raising our children on our farm 
hasn't always exactly been easy, but we are very proud of what 
we have accomplished.
    Today, we farm approximately 2,000 acres that we grow corn, 
soybeans, alfalfa, wheat and other feed crops for our cattle. 
We operate a feed cow calf operation that has about 700 cows, 
that my husband is home finishing calving for me right now, but 
the majority of them will calf in the spring.
    We also operate a small feed lot that enables us to feed 
our own cattle, and actually, much of what we grow, sometimes 
we are able to feed them. We also custom feed other producers' 
cattle. We have a custom hay-grinding operation where we grind 
area cattlemen's hay for them, and we also buy and sell quality 
alfalfa and we have supplied dairies and feedlots throughout 
Kansas.
    But first, and most importantly, I am a mom and I am a 
consumer, and a farmer, so I would never want my children to 
eat anything, or anybody else's children to consume something 
that was bad for them, that was unsafe. And as a farmer, my 
family would never want anything to enter the food supply that 
we raised or that we grew that would be proven to be unsafe. 
And there has been, very many--all the credible studies have 
shown that genetically-modified ingredients and products are 
safe.
    On our farm, we use this biotechnology to be able to 
conserve moisture. We also have found that by using this 
technology, up to 40 percent we can save on fuel, on fertilizer 
and on pesticides. We have seen that drop over the last 24 
years. We also are stewards of the land. The environment is 
very important to us, so the less we use of all of these things 
are very important, and we owe that to biotechnology.
    Labeling a safe product, to me as a consumer, just does not 
make any sense. So I just feel that this, making a mandatory 
label is going to mislead consumers into thinking that it is 
unsafe, which we have heard today that that is wrong.
    With the future projections of our growing world, farmers 
and ranchers around the world are going to have to double their 
food production to meet those growing demands, and on my farm, 
biotechnology is a way that we feel like we can make this 
happen.
    On our farm, we also have the ability to store more than 
20,000 bushels of grain. So when we harvest our crops, we store 
that grain in different bins. Due to crop insurance 
regulations, there are certain things that we need to abide by, 
but we can store all one kind of grain in one bin. And the same 
is true for my local elevators and all our rural communities. 
For us, we do this so that we can market that crop later, or 
feed it to our livestock, but it would cost billions of dollars 
in infrastructure and new technology to be able to just 
absolutely trace a biological trait from my farm to the 
consumer's table.
    As a mother and a farmer, I urge Congress to pass this H.R. 
4432, the Safe and Accurate Food Labeling Act. For me to be 
able to continue to farm like I do, and to meet the growing 
future's needs, I really urge you to do this.
    And I really thank you for your time.
    [The prepared statement of Ms. Forshee follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Pitts. Chair thanks the gentlelady, and now recognizes 
Mr. Dempsey 5 minutes for your opening statement.

                    STATEMENT OF TOM DEMPSEY

    Mr. Dempsey. Thank you. First, I would like to thank the 
subcommittee, Chairman Pitts and Ranking Member Pallone, for 
holding this hearing to provide a balanced review of one of the 
most critical issues facing the food industry today, the 
labeling of genetically-modified organisms, or GMOs.
    My name is Tom Dempsey. I have served as the President and 
Chief Executive Officer of the Snack Food Association, the SFA, 
since 2013. Prior to joining SFA, I was the President of one of 
the largest privately owned snack food brands in the United 
States.
    Today at SFA, I represent over 400 companies who produce 
snacks ranging from potato chips to granola bars. My members 
include both billion dollar, multi-category companies, and 
small, family-owned businesses in the second and third 
generation of management. More than half of SFA members have 
sales of less than $100 million a year, and many are the 
primary employers in their community.
    While voters have rejected ballot initiatives calling for 
mandatory GMO labeling in 4 states, the state of Vermont 
recently approved the Nation's first mandatory labeling law. 
Mandatory GMO labeling at the state level would impact nearly 
every aspect of my members' business, upping costs by requiring 
increased product inventory, added complexity for packaging and 
distribution processes, and extensive new regulatory and 
training requirements.
    Absent a federal solution, manufacturers will have 
essentially three options to comply with a state GMO: redesign 
their packaging, reformulate products so that no labeling is 
required, or halt sales to that state. Each option is 
difficult, costly, time-intensive, and at worst, could 
eliminate jobs and consumer choice in the marketplace. Smaller 
companies may not have these options at all. A patchwork of GMO 
labeling laws would pose significant burdens on the 
manufacturing process itself. They would require separate 
storage for GMO and non-GMO products throughout the entire 
supply chain, beginning with the farmer, and extending through 
various states of production and distribution. Aside from new 
administrative and recordkeeping burdens, snack makers will be 
forced to clean and boil the sheeting, baking, frying, and 
seasoning lines between GMO and non-GMO production to ensure 
there is no contamination. This could take up to 2 hours, and 
would lead into a loss in valuable production time. Duplicative 
food labeling for the same stock keeping unit, or SKU, assigned 
to each product line is also a problem. Film, which is our 
industry's term for snack packaging, would need to be changed 
mid-production, and 2 separate inventories of the same finished 
product must be kept. Significant lead times and costs would go 
into bag changes. The cost in plate charges, new film, 
administrative oversight could be more than $750,000 for 800 
SKUs, and the process could take 20 to 26 weeks.
    GMO and non-GMO products must continue to be segregated 
from the factory to the grocery store, resulting in increased 
distribution costs and heightened opportunity for mistakes.
    To be clear, the hardest hit by this will be the one plant 
operators with a single line of production. These costs could 
put family-owned businesses out of business, thereby increasing 
consolidation in the industry. While it is sometimes assumed 
that companies could remove the GMO ingredients from their 
products, this is unrealistic because the availability of non-
GMO crops is limited. Over 80 percent, although I heard today 
90 percent, of the corn, cotton, and soybean crops in the 
United States are produced with biotechnology, all products 
which are staple items in the snack production. Our members 
will not have the opportunity to increase their contract with 
farmers or mills for non-GMO corn for a minimum of 2 years. 
Transitioning to GMO-free production will not happen overnight.
    Some manufacturers may choose to end distribution in states 
that require GMO labeling, resulting in fewer product options 
for consumers, and causing a ripple effect in the grocery 
industry. Even if manufacturers notify grocers of their intent 
to stop selling in a state, manufacturers could run the risk of 
being fined if retailers do not comply or if mistakes happen in 
the distribution process. Fewer players in the aisle could mean 
less incentive to keep quality high and prices low. Fewer 
products could disproportionately cause job losses for some in 
the distribution chain. Ultimately, a patchwork of state GMO 
laws will hit consumers the hardest, and would result in either 
increased costs at the grocery store, or less availability of 
products in their stores.
    In addition, it is important to note that consumers already 
have options to purchase non-GMO foods, and these options 
continue to expand. For over a decade, both the USDA's natural 
organic program and the independent non-GMO project have 
certified foods that are organic and GMO-free respectively. The 
process to gain these certification seals is not only rigorous 
but expensive. Many SFA members have already made the 
significant investment to display these voluntary labels. 
Forcing companies to re-label more than 80 percent of the 
products does nothing but add cost, confusion and may limit 
choices to consumers.
    SFA does not have a single member company that 
manufactures, distributes, and sells in just one state, which 
makes state labeling law incredibly complex. Multiply these 
challenges by 5, 10, or even 25 states, and an insurmountable 
burden is placed on the supply chain. SFA supports the Safe and 
Accurate Food Labeling Act, which eliminates the proposed 
patchwork of state laws by creating one federal GMO standard, 
and provides much-needed consistency for manufacturers and 
consumers alike.
    Thank you for your time.
    [The prepared statement of Mr. Dempsey follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Pitts. Chair thanks all of our witnesses for your 
testimony.
    I will begin the questioning. Recognize myself 5 minutes 
for that purpose.
    Dr. Van Eenennaam, is there currently a lack of consensus 
about the validity of research and science behind the safety of 
foods and ingredients derived from genetically-engineered 
crops?
    Ms. Van Eenennaam. Well, as I stated in my testimony, there 
is clear consensus among all of the leading scientific 
organizations throughout the world, and the meta-analysis of 
over 1,700 studies, about \1/3\ of which are done by the public 
sector that do not have any industry funding, somewhere in that 
vicinity, have all come to the same conclusion that there are 
no unique risks posed by the use of this particular breeding 
method in the production of genetically-engineered crops.
    Consensus doesn't mean unanimity, so there are scientists 
that you will hear that say that that is not true, but to your 
question earlier, it is as strong of a consensus, it is 
probably stronger than on global warming, it is 99 to 1, or 
something in that vicinity. And I think if you get consensus of 
all of the major scientific societies in the world, then that 
is a pretty strong consensus.
    Mr. Pitts. The first generation of biotechnology products 
has brought tremendous benefits to farmers, as we have heard. 
What do you see as the potential for a consumer facing benefits 
of the next generation of biotechnology products?
    Ms. Van Eenennaam. So certainly, and I might argue the 
consumer has had some benefit from the first generation also 
because of the decreased insecticide use associated with Bt 
crops, for example, has knock on benefits for the environment 
and the consumer, and also costs. But there are direct benefit 
traits being developed for consumers. For example, altered 
nutritional profiles of crops for improved human health, and 
particularly in developing nations, there are efforts to bio-
fortify crops to improve the nutritional profile of staple 
crops of the world's poor to improve their nutrition. And so 
there is a huge interest amongst public sector scientists and 
also public-private partnerships to try to use this technology 
to improve foodstuffs and improve the nutritional composition 
of crops for both developed and developing countries.
    Mr. Pitts. As a scientist, could you put in laymen's terms, 
you said this requires use of less pesticides. How does that 
occur, how do they make that occur?
    Ms. Van Eenennaam. Well, for example, the insect-protected 
crops have a protein in them that basically targets Lepidoptera 
caterpillars so that when they eat the crop, they perish, but 
it is safe for humans. And so it basically enables farmers not 
to have to put insecticide on that crop. And so, for example, 
especially in the developing world, there has been a dramatic 
production in insecticides, over \1/2\--they have doubled--
decreased their insecticide use by over \1/2\, and they have 
doubled their yields as a result of protecting the crops from 
the insects, and not having to use more dangerous insecticides 
to protect those crops. And so it is kind of breeding the crop 
to be protected from insects and, therefore, you can decrease 
your insecticide use.
    And even in the U.S., it has decreased the use of 
insecticides on Bt corn over tenfold since the adoption of this 
technology.
    Mr. Pitts. Thank you.
    Mr. Faber, how would you describe or define natural?
    Mr. Faber. Yes, that is a great question, Mr. Chairman. I 
think commonsense definition of natural for an ordinary 
consumer would not include genetically-modified ingredients. In 
fact, one of the major providers of the technology, Monsanto, 
itself does not define biotech traits to be something that 
should be described by natural. And I think you are getting it 
right at the heart of the matter, which is that consumers go to 
the store, they see an all-natural or natural disclosure, and 
roughly 60 percent, depending on its study, 58 percent, 64 
percent in others, believe that that food is GMO-free.
    What is important here is that we want consumers to be 
using their buying power to shape their lives and the world 
around them. If they are confused about what they are buying, 
they are not able to use their buying power to really make 
good, informed choices.
    Mr. Pitts. Thank you.
    Representative Webb, when would your law become effective? 
Is it effective now?
    Ms. Webb. We are involved in rulemaking now. Rules should 
be out July 2015 and in effect July 2016.
    Mr. Pitts. All right. Ms. Forshee or Mr. Dempsey, how would 
this labeling requirement affect your snack food companies if 
they did not wish to comply?
    Mr. Dempsey. Well, as I said, there are three options. They 
can reformulate, they could label, or they could cease sales 
within Vermont. And I think each individual company is going to 
have to make that decision based upon the number of businesses 
and SKUs that have to be relabeled.
    Mr. Pitts. And finally, Ms. Forshee, has biotechnology 
impacted the way you farm, say, in the past decade?
    Ms. Forshee. Well, I would say that we are able--with that 
kind of technology, we are able to use a practice of no-till 
which allows us to conserve moisture and not spray the crops 
nearly as much as--I mean there is a whole notion of--that 
farmers just dump pesticides and herbicides on their crops, but 
we don't. It is very costly to do that kind of an application, 
spray any kind of an application, and so we are very--what I 
want to say, we use GPS to do that so that there is just the 
right amount put on the crop and no more. And so the less we 
can do that, the more it is going to help our bottom dollar too 
for yield. So we have seen higher yields as well on our farm in 
the last 24 years----
    Mr. Pitts. And with----
    Ms. Forshee [continuing]. As a result of that.
    Mr. Pitts. With no-till, less run-off--water run-off?
    Ms. Forshee. That is correct. And also though the 
biotechnology traits in our crops, it all comes together as 
one.
    Mr. Pitts. Thank you. My time has expired.
    The chair recognizes the ranking member, Mr. Pallone, 5 
minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Faber and Representative Webb, you both believe that 
industry should be required to label all foods that contain GE 
ingredients, and you both also characterize such labeling 
requirements as a modest disclosure or a simple request. And, 
Mr. Faber, you also state that food companies frequently change 
their labels to make new claims or to highlight new 
innovations. And I think an accurate summary of your position 
on this is that it simply is not a big deal for companies who 
use GE ingredients to label their products as such. Now, Mr. 
Dempsey, on the other hand, makes the argument that mandatory 
labeling for GE foods would dramatically increase the cost of 
the food because it would require manufacturers to segregate 
the food or use multiple labeling films, a number of things.
    I guess in my view, on the one hand, if it is truly not 
that burdensome for industry to label their food, then why 
shouldn't they be required to do so. On the other hand, if the 
labeling requirement could result in higher food costs, maybe 
that is not a risk that we want to take.
    So let me just ask you these questions in light of that. 
First, Mr. Faber or Representative Webb, can you elaborate on 
why you believe a mandatory labeling requirement is simple for 
industry, and how do you respond to the assertion by Mr. 
Dempsey and others in industry that complying with that 
requirement would be an elaborate and expensive prospect? 
Briefly if you can----
    Mr. Faber. Right.
    Mr. Pallone [continuing]. Because I want to ask him a 
question too.
    Mr. Faber. Absolutely. So very briefly, so we have heard 
reference from Mr. Pompeo and Mr. Butterfield to this $500 cost 
associated with food labeling. That study assumes two things, 
and one thing in particular is that disclosure would ultimately 
equal disparagement, that consumers would see a disclosure, 
they would stop eating food made with genetically-modified food 
ingredients, and that would cause costly supply change 
disruptions or force consumers to buy organic. What we know 
about how consumers use labels is they tend to look for certain 
attributes. You may look for fiber, I may look for calories. We 
tend not to read the whole package. We use that information to 
make particular decisions about our food choices. So the notion 
that American consumers are going to broadly reject foods with 
a modest, nonjudgmental disclosure I think is unfounded. We 
know that in part because we have labeling in 64 other 
countries, including countries like Brazil, where there has 
been a disclosure for--since 2001, and consumers more or less 
eat the way they have for the last 13 years. So I think we can 
all be confident that if we craft the disclosure in the right 
way, to your earlier point, Mr. Pallone, that we can give 
consumers information without rendering a judgment that 
ultimately leads to significant changes in buying behavior.
    The other thing I will just quickly say again is that 
companies are already finding ways to make both non-GMO and GMO 
foods. We have segregation throughout the supply chain. We 
preserve identity of these grains throughout the supply chain, 
in part because the marketing needs, but also because of 
quality and allergen needs. So there is already an 
infrastructure in place that allows us to segregate non-GMO and 
GMO, and other kinds of grains and oils.
    Mr. Pallone. All right. I am going to go to Mr. Dempsey now 
because I want you to respond to those claims and specifically 
respond to the assertion that food companies are changing their 
labels so they can easily do this. What do you--how do you 
respond to what----
    Mr. Dempsey. Well----
    Mr. Pallone [continuing]. Mr. Faber was saying?
    Mr. Dempsey [continuing]. Certainly, food companies change 
their labels but not on a wholesale banner, and do all of them 
all at the same time. So you run into a big situation of X 
number of SKUs that have to be done all at the same time to 
comply with a law that goes into effect in 2016. Small 
businesses would be hit very hard because of that. They have 
historically been ones who change their labels very seldomly. 
And in central Pennsylvania, I can probably think of five or 
six companies that are using the same graphics, same bags that 
they have had for many years; the only changes, those being 
mandated by the FDA. So I think the real burden comes on the 
small family-owned, small operators who have SKUs that are 
genetically modified and have to label them, and rather than 
using what the market has now, and that is the option of a non-
GMO or GMO-free certification, to notify and give consumers 
transparency, which gives the manufacturer the option of doing 
it.
    Mr. Faber. Can I add just one quick thing?
    Mr. Pallone. Well, maybe I will ask Representative Webb, we 
have 40 seconds----
    Ms. Webb. Yes.
    Mr. Pallone [continuing]. If you want to say something.
    Ms. Webb. I would say that we are in rulemaking process 
now. We have manufacturers that are weighing in on how that 
label will be written. We are hoping that our labeling will be 
something that other states can use. The standards between 
Maine, Connecticut and Vermont, the legislation is similar. We 
are also a small state. We have 630,000 people in our entire 
state. People already drive to New Hampshire to avoid the sales 
tax, so if the industry chooses not to sell in Vermont, I am 
sure that we can get our Doritos over the state lines.
    Mr. Pallone. All right.
    Mr. Faber. And I would like just to add, that not only do 
companies change their packaging all the time, the average 
lifespan of a label is about a year, we ask companies to change 
their disclosures. We ask them to change them for trans fat, we 
ask them to change them for allergen labeling, and we are about 
to ask them to change their labels as part of a refresh of the 
nutrition facts panel. So there are periods in the history of 
labeling where we ask companies to disclose a little bit more 
about what is in the food. This is the perfect time, since we 
are in the midst of an NFP rulemaking, to think about how can 
we make this disclosure in a way that is nonjudgmental.
    Mr. Pallone. Thank you.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman from Virginia, Mr. Griffith, 5 
minutes for questions.
    Mr. Griffith. Well, and I would have to say that from 
listening to the testimony today, that I am convinced we have 
to have a national policy. And we can argue, Representative 
Webb, about what that policy ought to be, and, Mr. Faber, we 
can argue about what that policy ought to be but I think it 
needs to be national. It may be relatively easy for Vermonters 
to cross the stateliness to get their Doritos, but I would have 
to submit that in parts of my district, and I represent the 
southwestern portion of Virginia, the Allegheny Highlands of 
Virginia, and Southside Virginia. It is a large district, it 
may be larger than Vermont, certainly has more people in it, 
but there are parts of that where, if you wanted to go and get 
some other product, you would have to drive several hours. 
There are other parts where you just walk across the street, 
and so if you had a grocer on one side of the street, and you 
looked at the labeling in that state and on Tennessee on State 
Street, and you said, I don't know about this genetic 
engineering, and you walk across the street, it might be the 
very same product but it might not have that label on in 
Virginia. So I am convinced we have to have a national label.
    And just a few miles up the road from State Street, where 
you literally are on the main street of the town, and you are 
one state on one side and in another state on the other side of 
the street, is probably one of your members, Mr. Dempsey, 
Shearer Foods has a potato chip facility there and they 
obviously ship to a number of states from that Bristol, 
Virginia, plant.
    Mr. Dempsey. That is correct.
    Mr. Griffith. And so that concerns me that they would have 
to have different labels for all the states that they operate 
in, but I am particular concerned about if we don't have a 
national policy, concerned that the consumer gets confused into 
what is it I am buying. Well, if I buy it in Virginia, it is a 
different product than what I am buying in Tennessee. I don't 
know whether you have any towns like that in Vermont that 
straddle the state line, but I have a number of them. Bristol, 
Virginia/Tennessee, Bluefield, Virginia/West Virginia, the 
Martinsville area has towns if you didn't know where you were, 
you would be out of Henry County and into North Carolina in a 
heartbeat traveling down 220. And so I think we have to be 
very, very concerned about that, and I do think it is 
important.
    And then the other thing is your rulemaking process, I know 
your Attorney General is in charge of that, but what experience 
does Vermont have, Representative Webb, in food labeling? I 
mean is this something that they have done before in some kind 
of a large way, and what are they doing in that process to try 
to label these foods?
    Ms. Webb. Well, as I previously stated, we did make some 
changes to our maple syrup labeling.
    Mr. Pitts. Can you poke your----
    Ms. Webb. I am not on?
    Mr. Pitts. Yes.
    Mr. Griffith. Yes. You did say that about maple syrup, and 
what was the difference? I just assumed it was a parochial 
difference.
    Ms. Webb. Our labeling had been grade A, grade B. We chose 
to go with the standards that they are using in Quebec because 
they are a larger producer than our brave little state.
    Mr. Griffith. And grade A, grade B, what do they use in 
Quebec?
    Ms. Webb. Goodness. I am not----
    Mr. Griffith. Because I have to tell you the truth----
    Ms. Webb. Yes.
    Mr. Griffith [continuing]. My wife disagrees with me----
    Ms. Webb. Total difference.
    Mr. Griffith [continuing]. I can't tell the difference 
between A and B----
    Ms. Webb. Yes.
    Mr. Griffith [continuing]. So I always buy B because it is 
cheaper.
    Ms. Webb. Yes. I like B too.
    Mr. Griffith. Yes. But what is the Quebec standard so I 
will know what I am looking at when I go to----
    Ms. Webb. I----
    Mr. Griffith [continuing]. The store?
    Ms. Webb. I would have to look it up.
    Mr. Griffith. You would have to look it up. All right, I 
appreciate that. That was----
    Ms. Webb. We just recently----
    Mr. Griffith. That was not fair to ask you today anyway----
    Ms. Webb. Yes.
    Mr. Griffith [continuing]. I apologize. I do think it is 
complicated, and I would ask folks who are here today, or who 
are watching at home, if you have suggestions on how you might 
make some reasonable changes to Mr. Pompeo's Bill, he may or 
may not accept them, but I would ask that you submit those to 
the committee so that we can take a look at those changes 
because I am convinced we have to have a national standard. And 
I would like to know, if I am buying something that is labeled 
natural, and I do that on a fairly regular basis, I would like 
to know that there is something standard about it, and so I 
would like to see us move in that direction as well.
    Mr. Faber. And, Mr. Griffith, we would be thrilled to work 
with you and with our colleagues in the food industry, and to 
craft a national disclosure that is mandatory, that works for 
the consumer, but that also works for food manufacturers who 
have to operate in 50 states, I think if people of goodwill 
could find a way to develop a disclosure that is truly 
nonjudgmental, and I would welcome the opportunity to do that.
    Mr. Griffith. Well, and I appreciate that. I will tell you 
that in thinking about this over the years, as you may have 
heard earlier, I do read labels fairly carefully----
    Mr. Faber. Yes, I know.
    Mr. Griffith [continuing]. And I am convinced now that 
genetically-modified or genetically-engineered foods are so 
prevalent that we probably need to go the other way, and for 
those of us that may want to purchase something, that the 
labeling requirement ought to be on those who can certify that 
their food, in fact, does not have this product in it, as 
opposed to the reverse.
    Mr. Faber. That is right. And you and I may agree or 
disagree about whether or not there are more herbicides or 
fewer herbicides, or--I think the bottom line here is that 
consumers want to be able to make those choices themselves. And 
it ultimately boils down not just to an issue of transparency, 
but an issue of trust. If we give parents, consumers the basic 
information, we should trust them to do their homework and make 
those choices for themselves.
    Mr. Griffith. I appreciate that.
    And with that, Mr. Chairman, I see my time is up and yield 
back.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the gentlelady from California, Mrs. Capps, 5 
minutes for questions.
    Mrs. Capps. Thank you very much, Mr. Chairman. And to our 
witnesses, thank you for being at this hearing and your 
testimony.
    I think we are finding ourselves in general agreement that 
a good federal standard for GE labeling is preferable to a 
confusing patchwork of state labeling rules, which it appears 
that we have today, but there still is disagreement about what 
exactly that standard should be. I want to be clear, I don't 
believe this is even a debate about whether or not GE foods are 
safe, it is a debate about whether or not consumers have the 
right to know what is in their food, and I think I am just 
echoing what some of you just have said. I firmly believe that 
consumers do have the right to make informed decisions about 
the food they eat, and I believe we pretty much all agree on 
this point.
    Just to get it on the record, however, what about now a 
simple yes or no question so we can get this on the record. And 
I will start with Dr. Van Eenennaam, and right down the line, 
yes or no, do you think consumers should have the right to know 
what is in their food?
    Ms. Van Eenennaam. I can't give you a yes-or-no answer to 
that.
    Mrs. Capps. You can't say yes or no?
    Ms. Van Eenennaam. No, because I don't think the labeling 
is about what is in the food, it is about the process used to 
make the food, and that is a really subtle difference.
    Mrs. Capps. I hear you.
    Ms. Van Eenennaam. So sugar from genetically-engineered 
sugar beet is the same as sugar from non-genetically-engineered 
sugar cane sugar.
    Mrs. Capps. All right, I wanted to go faster than that, but 
we will give you----
    Ms. Van Eenennaam. Well, I mean because I think we are not 
discussing about a label of what is in the food----
    Mrs. Capps. But----
    Ms. Van Eenennaam [continuing]. We are talking about a 
label of how it was produced.
    Mrs. Capps. Well, I think that could be under the umbrella, 
but that, yes, we do need to do this and we also need to talk 
about how to do it and what should be in it. But I will just go 
right along.
    Mr. Faber. Yes, of course consumers should have the right 
to know what is in their food.
    Mrs. Capps. Yes.
    Ms. Webb. Absolutely.
    Ms. Forshee. Yes.
    Mr. Dempsey. It depends on how easy it is to give them the 
right to know. I think that is a too simple--a yes/no is too 
simple of a response.
    Mrs. Capps. All right, I got an answer. Unfortunately, 
consumers currently do not have access to all the information 
they are looking for when it comes to GE foods, and consumers 
are often further confused, confused enough by not knowing what 
is in it, and then confused by what the information that they 
find on the packaging.
    So I will now zero in on you, Mr. Faber. Why do you think 
there is currently so much consumer confusion when it comes to 
GE labels?
    Mr. Faber. Well, consumers have been deluged with 
misleading claims for many, many years, especially claims like 
natural. They perceive those claims, natural, all-natural, to 
mean something that they don't. They perceive those claims to 
mean GMO-free, and they are using their buying power in a way 
that they think is improving the world around them, when it is 
actually not.
    Mrs. Capps. And it is not. So you agree that the current 
voluntary system is not working?
    Mr. Faber. And the voluntary system isn't serving consumers 
and codifying the voluntary system as H.R. 4432 would just 
continue to create more and more consumer confusion.
    Mrs. Capps. That was my next question, so I can just let 
you underscore it again. One of the arguments in favor of H.R. 
4432 is that it will reduce this confusion. You disagree?
    Mr. Faber. We strongly disagree. I think if we lived in a 
world where consumers perfectly understood what natural, non-
GMO, organic and other claims meant, then a voluntary system 
might make sense, but we don't live in that world.
    Mrs. Capps. Right.
    Mr. Faber. We live in a world where consumers are 
extraordinarily confused about what they are buying at the 
point of sale.
    Mrs. Capps. Well, I think we would also agree that this is 
certainly a complicated topic, and any labeling system must be 
implemented carefully and in close consultation with the 
industry, actually with all the stakeholders, but the current 
system, I believe and I think there is some agreement here, is 
not working for consumers. So I am concerned that the bill we 
have before us, I guess I agree with you, Mr. Faber, that it 
just largely codifies the inadequate rules that we now have.
    But I have 50 seconds left to ask you, and you agree that 
consumers are making decisions with their wallets, and they 
choose to avoid GE products, not because of food safety 
concerns, I want to bring up and let you respond to, but 
because of their environmental impact as well. So that is a 
further aspect, at least for many of my constituents. What are 
some of the environmental concerns that consumers are now 
having with the GE crops?
    Mr. Faber. Thank you. Thank you, Mrs. Capps. There are many 
reasons that people want the right to know what is in their 
food. One is that the widespread adoption of GE corn and GE 
soybeans in the U.S. has increased the amount of herbicides 
that we use, and as those herbicides have become less effective 
due to weed resistance, has forced farmers to turn to even more 
toxic herbicides like 2.4-D----
    Mrs. Capps. I got you.
    Mr. Faber [continuing]. Mentioned by Ms. Schakowsky 
earlier.
    Mrs. Capps. And so, again, you think consumers should be 
able to take this kind of information into account as well when 
making food choices?
    Mr. Faber. Consumers overwhelmingly tell you, tell us, tell 
consumer attitudes experts, they simply want to have that 
information so they can make those choices for themselves.
    Mrs. Capps. Thank you very much.
    I yield back.
    Mr. Pitts. Chair thanks the gentlelady.
    Now recognize the gentleman from Florida, Mr. Bilirakis, 5 
minutes for questions.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it so 
very much, and thank you for holding this hearing.
    I have a couple of questions. Dr. Eenennaam, can you 
describe the current issue with Citrus Greening, affecting 
orange trees throughout the country? What is the role of GM 
technology in helping to fight this devastating disease?
    Ms. Van Eenennaam. Well, Florida industry in particular is 
being hit by this particular disease, and as plant breeders 
looking for options as to how we might go about trying to solve 
the issue, and there are several land grant universities, I am 
aware of Florida and Texas and California, all looking at both 
conventional breeding if that is an option, but also genetic 
engineering options. And I think that is the power of the 
technology is you can bring in a gene from another species to 
enable those trees to be resistant to the Citrus Greening 
Disease, and that is really, I think, the opportunity that 
exists to utilize this technology to develop disease-resistant 
plants that are able to withstand devastating diseases like 
Citrus Greening Disease or Pierce's Disease. And I think many 
public sector scientists see this as a real opportunity to 
develop plants that are healthier, don't require any pesticidal 
inputs or anything, it is just basically breeding, to make 
those trees healthier and able to withstand that disease.
    Mr. Bilirakis. Thank you very much.
    Ms. Van Eenennaam. I think that is a really important--
depending what the application of the genetically-engineered 
crop is depends on the environmental impacts. For example, the 
disease-resistant papaya doesn't require any inputs, and it 
enables those crops to grow. And so I think that you have to 
look at the application as to whether or not it has an 
increased or decreased effect on pesticide use. And it is 
application-specific and location-specific and country-
specific.
    Mr. Bilirakis. Thank you so much, doctor. And I am from the 
State of Florida, so I have a real interest.
    Ms. Forshee, how much fuel does it take to plant and 
harvest your field? I know you talked about this a little bit, 
you alluded to it in your statement.
    Ms. Forshee. How much what? I am----
    Mr. Bilirakis. How much fuel does it take to plant and 
harvest your field?
    Ms. Forshee. Well, I would say that--from planting to 
harvesting?
    Mr. Bilirakis. Well, approximately.
    Ms. Forshee. Right. I would say right now on my farm, we 
are not tilling the land. We are no-till farming. So we use 
fuel in our tractor when we plant the crop, which probably for 
a couple of hours of planting, you know, maybe like on an 80-
acre farm would maybe consume about--I would say maybe \1/4\ of 
a tank of fuel to maybe \1/2\ a tractor tank of fuel. So maybe 
75 to 100 gallons there. And then we harvest the crop. I mean, 
you know, sometimes there does need to be an application if 
there is a weed problem, so I would say total, from planting to 
harvesting, maybe a couple hundred gallon, where before, if we 
were having to work the ground and, you know, really, you know, 
put strain on our tractors and equipment, it would double if 
not, you know, triple that fuel consumption.
    Mr. Bilirakis. Thank you very much.
    Ms. Forshee. Thank you.
    Mr. Bilirakis. Thank you. Mr. Faber, if genetic 
modification were the only way to fight a particular disease, 
would the Environmental Working Group still oppose this type of 
technology?
    Mr. Faber. Thank you for the question. We do not oppose 
genetic engineering, genetically-modified food ingredients. We 
think there are actually many promising applications of 
genetically-modified food ingredients. Dr. Van Eenennaam 
mentioned several of them. This isn't a question about the 
technology, this is a question of whether or not to require 
labeling; it is really a question of transparency, should 
people have this information to make their own choices for 
their own families. I am an optimist. I am optimistic that the 
promises that were made by the providers of this technology 
will ultimately be realized that will have traits that produce 
more nutritious food, that will see significant yield 
increases. All of those promises haven't yet been realized, but 
that is not what is at stake here in this question of whether 
or not to preempt Act 120, or whether or not to craft a 
national disclosure system. The real issue is should people 
have the right to decide for themselves, and does FDA have the 
authority now, I believe they do, to work with us to craft some 
kind of informative, fact-based, nonjudgmental disclosure on 
the back of the package.
    Mr. Bilirakis. OK, thank you very much.
    I yield back, Mr. Chairman.
    Mr. Pitts. Chair thanks the gentleman.
    The chair now recognizes Mr. Matheson 5 minutes for 
questions.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Dempsey, in your industry when people manufacture, 
makes the product, perhaps someone else is a distributor, 
perhaps someone else is the grocery store owner, if you have a 
product that was supposed to be made for the state of Maine, 
and it accidently went by a truck to Vermont and got put on a 
shelf, and Vermont charges $1,000 a day fine, who is going to 
pay the fine out of the manufacturer, the distributor or the 
grocery store owner?
    Mr. Dempsey. My understanding with the Vermont law the way 
it is currently crafted is the manufacturer is responsible for 
that on $1,000 a day per SKU.
    Mr. Matheson. Even if the distributor may be a separate 
third-party entity that----
    Mr. Dempsey. Yes.
    Mr. Matheson [continuing]. Mistakenly went blunder?
    Mr. Dempsey. Yes, in fact, the way I understand the law, 
the retailer is absolutely exempt from that fine.
    Mr. Matheson. Representative Webb, do you think that is a 
correct interpretation of the law?
    Ms. Webb. Is that to me? The retailer would be responsible 
if the product was an agricultural product such as corn that 
was----
    Mr. Matheson. I am talking about a pack of potato chips 
that got made some place else, and accidentally the distributor 
took it across state lines.
    Ms. Webb. I would have to check on that.
    Mr. Matheson. OK.
    Ms. Webb. I am happy to get back to you.
    Mr. Matheson. Seems to me in this hearing we are talking 
about this consumer right to know. I find it interesting, this 
is on an issue where everyone has acknowledged there is no 
health or safety risk here. I find this--it is the old clich 
AE1e, a solution in search of a problem. Now, we do have a 
problem with mislabeling where people say something is natural, 
and no one can decide what natural is. And I think that Mr. 
Pompeo's legislation rightly encourages the FDA to move forward 
on that issue, and give clarity that issue, and I think that is 
important. I think that is something we have consensus across 
the board here, but whether or not we should be doing labeling 
on a component of food that has no demonstrated health or 
safety risk, that is a tougher one for some of us to swallow, I 
think.
    Mr. Faber. Mr. Matheson, could I?
    Mr. Matheson. No, I am going to ask you a question instead. 
I only have 5 minutes. You have indicated you think we should 
have a natural--national labeling system, but in addition to 
being a lobbyist for the Environmental Working Group, you are 
the executive director of Just Label It campaign.
    Mr. Faber. That is correct.
    Mr. Matheson. And the Just Label It campaign has spent a 
lot of money in a lot of states pushing state-based initiatives 
to set up individual state systems. Do you want state systems 
or do you want a national system, and why are you encouraging 
this effort at the state level?
    Mr. Faber. Yes, and as I testified--and thank you for the 
question, as I testified, we would greatly prefer a national 
solution. We believe that FDA has the authority to craft a 
national solution. FDA has used that authority to require 
disclosures unrelated to safety and health, to your earlier 
point. When food is unsafe in the United States, at least since 
1906, we don't label it, we take it off the shelves.
    Mr. Matheson. We also make sure that----
    Mr. Faber. But we----
    Mr. Matheson. But why are you pursuing it in each state? 
Tell me--what is the agenda here?
    Mr. Faber. In the absence----
    Mr. Matheson. If I hear there is another agenda here----
    Mr. Faber. There is no agenda here, except to----
    Mr. Matheson [continuing]. But pursuing it at the state 
level.
    Mr. Faber [continuing]. Protect consumers. I wish that the 
Administration today would work with us to craft a national 
solution. In the absence of that leadership, we think it is 
appropriate for states to step in and help protect consumers 
from----
    Mr. Matheson. See, I appreciate that that is your 
statement. I tend to question the logic of that. I think if you 
want a national standard, going out and stirring things up in 
every state to do a patchwork system that everyone around here 
said is a bad idea----
    Mr. Faber. Well----
    Mr. Matheson [continuing]. Doesn't make much sense to me.
    Mr. Faber. Let----
    Mr. Matheson. I don't want to get in a debate with you, but 
I don't see the consistency in that, and I think there may be 
other agendas involved in terms of pursuing it at the state 
level.
    Congress can help this as well if you want to engage 
Congress. This committee is holding hearings. I think we would 
have a conversation if there ought to be some national standard 
or not, and I welcome this hearing. I welcome Chairman Pitts 
scheduling this because I think this is an issue that deserves 
a lot of discussion, but there is another effort going on and, 
boy, a lot of effort and resources being spent in these 
different states on state ballot initiatives, and I question 
what the motivation is, and if that really gets us to where 
anybody in this room really wants to be, maybe some people want 
to be there with that patchwork of 50 stats, 50 different 
rules, or as Mr. Pompeo said, maybe we shouldn't limit it to 
states. It could be counties, it could be cities, it could be a 
lot more than 50. I think we ought to figure out what we are 
really trying to do here, and what the agendas are. And I think 
we ought to look for a national standard, at best, and I would 
suggest a national standard ought to be on science-based 
decision making about health and safety risks to consumers, to 
the integrity of our food supply chain, and that is what I 
encourage this--I think most people on a bipartisan basis would 
agree, that is the motivation for this committee in looking at 
this issue.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize the gentleman from Maryland, Mr. Sarbanes, 5 
minutes for questions.
    Mr. Sarbanes. Thank you.
    Mr. Faber, do you know if the Nutritional Fact Panel that 
is now required for products, did the FDA conclude that needed 
to be there for safety reasons, or was that something that the 
Congress just decided, in response to the demand they heard 
from the public, ought to be on products?
    Mr. Faber. That is a terrific question. So the basis for 
the Nutrition Facts Panel was to try to promote nutrition and 
health.
    Mr. Sarbanes. Yes.
    Mr. Faber. The NLEA clearly preempted states from changing 
the NFP, the Nutrition Facts Panel, from adding things to the 
ingredient line, or from regulating certain kinds of claims 
like health claims, but the NLEA was also carefully crafted to 
preserve for the states other roles in food labeling, and 
states have already stepped into that role in many ways. And 
Mrs. Webb talked about this, whether it is grading butter and 
cheese in Wisconsin, or use-by and sell-by dates in 41 
different states. I am not arguing for a patchwork quilt, but I 
think we should recognize that Congress, more than 20 years 
ago, explicitly recognized----
    Mr. Sarbanes. Yes.
    Mr. Faber [continuing]. The longstanding role that states 
have played in food labeling, especially with regards to 
addressing consumer deception, and helping consumers understand 
what they are buying.
    Mr. Sarbanes. Mr. Dempsey, if the choice were between a 
situation where there were 50 different labeling regimes, or 1 
uniform labeling requirement, but that requirement was that you 
had to indicate whether there was genetically-engineered 
ingredients included, which would be the better one from your 
standpoint?
    Mr. Dempsey. We would want a federal standard that would 
place the FDA as a mandatory resource for determining what was 
genetically modified and what was not genetically modified, and 
we would want the labeling to be voluntary, similar to what we 
already have with organic. If someone wants an organic product, 
they go through an organic certification by the USDA, and we 
put organic on that. We do not put non-organic on the balance 
of the products. So it seems to me that forcing a mandatory 
labeling law onto products that are the predominant ones on the 
supermarket shelf goes against commonsense, and goes against 
convention and practice that we already have in the food 
industry.
    Mr. Sarbanes. Well, leaving this side of the debate about 
whether it makes commonsense or not, would it be preferable to 
having 50 different labeling----
    Mr. Dempsey. Certainly preferable.
    Mr. Sarbanes. OK. Now, if there was such a label, could it 
be as simple as some would say, may contain genetically-
engineered ingredients? And I don't know what the Vermont one 
says, but could you envision a national, Ms. Webb, standard 
that would essentially say something like that?
    Ms. Webb. We do allow for may----
    Mr. Sarbanes. Yes.
    Ms. Webb [continuing]. Contain.
    Mr. Sarbanes. Yes. Because as I am thinking about the 
disruption to the supply chain, it would seem to me that the 
burden, frankly, would end up being on those who want to be 
able to establish that their product is completely free of GE, 
to sort of police that supply chain. So just from a pricing 
standpoint, the genetically-engineered products, even if they 
had whatever extra cost you might attribute to that requirement 
added in, would end up being a lot less expensive potentially 
than the others. I am not asking a question, I am just kind of 
musing here about it.
    So I guess what I am trying to sort out is, I don't think 
the public's reaction to knowing that something is genetically 
engineered is going to create some huge distortion in the 
current nature of demand out there. I think many will say, 
maybe genetically engineered, I get that. They will do price 
comparisons. They will look at fiber, they will look at other 
things and they will make a decision on buying a product. And I 
am not also convinced that the industry can't handle the supply 
chain issues in a way that is significantly less expensive than 
the numbers that are being invoked, but it is a very 
complicated issue. I come from the perspective that there 
should be a right to know there, but within the context of 
that, I am ready to explore how industry can manage that right 
to know as efficiently and manageably as possible. Yes, you 
just want to----
    Mr. Dempsey. It seems to me there is a right to know----
    Mr. Sarbanes. Yes.
    Mr. Dempsey [continuing]. And the right to know is to look 
and shop for, as an organic shopper or a GMO shopper, for those 
seals that go through a certified and rigorous----
    Mr. Sarbanes. Yes.
    Mr. Dempsey [continuing]. Certification process. That is 
the lack of transparency, if you ask me. It is also from our 
members' perspective gives a marketing advantage to it, and in 
most cases, these products are more expensive than the, if you 
will, conventional products that are on the shelf. So I mean 
there is information out there if the intelligent, educated 
consumer wants to find that product.
    Mr. Faber. And unfortunately, consumers are looking at 
those claims, natural and organic, and many of them are getting 
it exactly backwards. They are thinking the natural claim that 
might be on a multigrain tortilla snack chip is the one that is 
GMO-free, and they look at the organic certification and they 
don't quite know what that means. And so that is why we think 
addressing the use of the word natural, and having a modest, 
nonjudgmental disclosure would help cure that consumer 
confusion. Consumers are extraordinarily busy, they are looking 
for a simple way to know what they are buying so they can use 
their buying power to shape the market.
    Mr. Sarbanes. Thank you.
    I yield back.
    Ms. Webb. May I add also that in deference to Mr. Dempsey's 
concern for smaller businesses, the cost for a small business 
to go through the non-GMO project is prohibitive for them, 
which is why we were looking at the expense to go to the larger 
industry, rather than for people trying to get----
    Mr. Pitts. Gentleman's time has expired.
    Chair recognizes the gentleman from Texas, Mr. Green, 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman.
    Coming from Texas though, when you say it is a multigrain 
tortilla chip, you know, corn is corn, but I know my daughter 
keeps telling me multigrain chips are much better.
    Mr. Dempsey, can you elaborate on how you feel the Vermont 
Act 120 would lead to a consolidation in the industry and many 
small businesses force to close, and also are the multi-
category, multinational players the only companies that can 
currently have the capability to change their supply chain and 
bear these type of costs?
    Mr. Dempsey. Smaller companies, the ones I would define as 
smaller companies, are companies with one plant, one line.
    Mr. Green. Yes.
    Mr. Dempsey. And as I said in my statements, closing those 
lines takes significant time out of the production process that 
would not be able to go right from non-GMO to GMO product. So 
then the companies have to decide whether they participate in 
the non-GMO labeling or the GMO labeling as it is in Vermont. 
They will have to make a decision on what products qualify to 
go into Vermont without labeling, and which ones don't. And a 
lot of those will determine both the distribution networks, 
some of those are DSD, some of those are warehouse, how do you 
leave open your, if you will, your company to fines if the 
wrong product gets into Vermont.
    Mr. Green. OK. Mr. Faber, according to the non-GMO foods, 
the U.S. market perspective, GMO foods are expected to account 
for up to 40 percent of the market by 2017, representing a 
value of about $264 billion. You state that consumers deserve a 
choice of knowing what is in their food, but isn't the market 
already voluntarily moving in that direction?
    Mr. Faber. Well, today, only about 3 percent of SKUs are 
certified as GMO-free by the non-GMO project, and so consumers 
are much likely today to see a natural claim on their 
multigrain tortilla chip----
    Mr. Green. Yes.
    Mr. Faber [continuing]. Than to see the little butterfly 
that means it has been a non-GMO certified multigrain tortilla 
chip. So consumers are much more likely today, and in the near 
future, to think that they are using their buying power to 
avoid GMOs, if that is what they choose to do, than they would 
if they are relying on that certification.
    Mr. Green. Do you think there are any costs shifted to 
consumers due to the mandatory labeling laws and how they might 
change the operation of our food supply?
    Mr. Faber. I don't believe that they will--even if we had a 
modest informational GMO disclosure tomorrow, that you would 
see dramatic change in buying behavior, and we know because we 
have GMO labeling in some form or another in 64 other 
countries, including countries where people eat more or less 
like us. Brazil is a great example where they have had a GMO 
disclosure since 2001, and where consumers have conferred a 
benefit to the GMO disclosure, and that is why they have not 
seen any significant change in buying behavior. So I am 
confident that if we had a GMO disclosure tomorrow, that the 
food industry would take all the money they have been spending 
to fight these ballot initiatives, which is now more than $100 
million, and invest it into a topnotch consumer education 
campaign to persuade consumers that GMOs have all the benefits 
that we have heard about during this hearing.
    Mr. Green. Well, and I guess that is my concern that, we 
heard from the FDA and, with their resources and, of course, we 
decide their resources to do the inspections, but there has 
been no proof that GMOs are actually bad to consume, and we 
also know, and I assume we will have testimony, but this is not 
the Ag Committee, but some of the GMOs have actually expanded 
our possibilities for food production, not only in our own 
country, because obviously we eat very well, but in parts of 
the world where starvation is an issue, whether it be the GMO 
rice product that you can, and those have been shown that they 
they don't harm humans, but it does help the nutrition issues.
    Mr. Faber. And as I said earlier, no one is arguing that 
farmers should be prohibited from planting GMOs, and GMO traits 
may indeed provide benefits to farmers or nutritional benefits 
someday. I think the real question here is whether or not 
people should be able to decide for themselves, and whether or 
not FDA has the authority to do so. As Mr. Waxman was talking 
about earlier, FDA has compelled disclosures simply because of 
consumer interest, and up until 1992, for the years between 
1938 and 1992, understood that word material that we talked 
about earlier really to mean relevant. Was it information that 
a consumer would want to have in order to make an educated 
choice.
    Mr. Green. Thank you for your patience, Mr. Chairman. I 
know I ran over time a little bit.
    Mr. Pitts. Chair thanks the gentleman.
    Now recognize Mr. Pompeo 5 minutes for questions.
    Mr. Pompeo. Thank you, Mr. Chairman.
    Ms. Forshee, thank you again for traveling out here to be 
here. You talked about the costs that would increase your small 
business to operate. I assume you wouldn't just eat those 
costs, you would attempt to pass them on as best you could to 
your customers?
    Ms. Forshee. Yes, just like any small business. I think I 
left off the fact that we have one full-time hired man as well, 
so, not only do we farm, but farming is a business----
    Mr. Pompeo. Yes.
    Ms. Forshee [continuing]. And that is exactly right, that 
would have to be passed down.
    Mr. Pompeo. I appreciate that. I have a lot of ground, I 
want to try and get some yes-or-no answers. We haven't been 
successful so far today. I am confident I will be the first to 
do so.
    Earlier today, we had an FDA witness testify, a very senior 
FDA official testify. He said that GE foods in the U.S. 
marketplace today are safe as their conventional counterparts. 
We will start on my left, your right, and tell me if you agree, 
yes or no, with that statement.
    Ms. Van Eenennaam. Yes.
    Mr. Faber. I believe so.
    Mr. Pompeo. That is a yes, for the record.
    Ms. Webb. Yes.
    Mr. Pompeo. Just yes, yes.
    Ms. Forshee. Yes.
    Mr. Dempsey. Yes.
    Mr. Pompeo. Yes. We have total unanimity. That is 
fantastic. That is one of the first times in this committee we 
have had that in my 4 years here, so that is all good news.
    And, Mr. Faber, you were talking about misinformation out 
there. I can tell you you are part of the problem. Your 
organization is part of the problem. Mr. Matheson asked you 
about it. You say you don't want a patchwork. You have spent 
millions of dollars stirring up trouble to create just that 
patchwork of regulation, and you are continuing to do so today. 
I am confident that the phones are ringing in my office as a 
result of your efforts to stir up this very challenge. And so I 
would just urge you to work to get to the right place. This 
piece of legislation requires the FDA to define natural, the 
very thing that you spent so much time in your testimony 
speaking to. So I am with you.
    Mr. Faber. Yes.
    Mr. Pallone. I want that to occur. But when you put up 
things and you call this piece of legislation the dark act, 
saying we are denying consumers the right to know, there is 
nothing in this legislation that denies any consumer any 
capacity to know precisely what it is they are eating. If any 
willing provider deems it appropriate, and finds customer 
demand to provide information to their customers about the 
nature of that product, no one's right to know is being 
impinged today, nor would it be if this bill became law.
    So as you are out there working to defeat this legislation, 
I hope you will be honest in the way you talk to America about 
this because it is very important that folks have the right to 
know. This Bill would never impinge on that. So I am sure today 
you will go out and issue something that says that this is not 
the dark act. I look forward to reading that on my Web site.
    Mr. Dempsey, you were talking about this. One to 10 on a 
scale, how does this impact the businesses that you represent 
if we fail to get this law put into place and a patchwork of 
rules becomes the norm in America?
    Mr. Dempsey. Ten being the most difficult scenario?
    Mr. Pompeo. Sure.
    Mr. Dempsey. Ten for sure.
    Mr. Pompeo. And so if it is a 10, what is it for the 
smallest businesses in America?
    Mr. Dempsey. Multiply that times 10.
    Mr. Pompeo. Thank you.
    Ms. Webb, how many FDA-level quality scientists are 
employed by the state of Vermont today that are reviewing these 
sets of food rules?
    Ms. Webb. I have no idea.
    Mr. Pompeo. So you----
    Ms. Webb. We are not trying to compete with the FDA or be 
the FDA.
    Mr. Pompeo. So are there any folks that are experts in food 
safety applied today by the state of Vermont that is trying to 
put forth a set of rules that I promise you the citizens you 
represent think have something to do with food safety?
    Ms. Webb. I would have to get back to you on that.
    Mr. Pompeo. You don't know. I would appreciate you getting 
back with the committee and answering that question.
    I want to come back to choice, Ms. Forshee, and this really 
comes to you. You are both the producer and the consumer. 
Today, if you decided, for whatever reason, because you had 
some personal preference with respect to non-GMO foods, do you 
think you could walk into a store somewhere, I guess not near 
you, 20 miles, but somewhere in Kansas and find that set of 
products on the shelves, or if you didn't, contact the 
providers of those foods and say I want you to label that? Do 
you think you could pull that off?
    Ms. Forshee. No. I mean----
    Mr. Pompeo. Yes.
    Ms. Forshee [continuing]. I don't believe so.
    Mr. Pompeo. Yes.
    Ms. Forshee. I really don't.
    Mr. Pompeo. Yes.
    Ms. Forshee. I mean I feel that it is safe----
    Mr. Pompeo. Yes.
    Ms. Forshee [continuing]. And that is what I care about is 
knowing that it is safe, but no.
    Mr. Pompeo. I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Pitts. All right, the chair thanks the gentleman.
    That concludes the questions of the members present. I am 
sure we will have follow-up questions. We will send them to you 
in writing. We ask that you please respond promptly.
    And members will have 10 business days to submit questions 
for the records. That means they should submit their questions 
by the close of business on Monday, December 29.
    Thank you very much for your testimony, for your 
willingness to come today, in a very important and informative 
hearing.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    

                                 <all>
</pre></body></html>
